<html>
<title> - BUILDING A 100 PERCENT CLEAN ECONOMY: SOLUTIONS FOR THE U.S. POWER SECTOR</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  BUILDING A 100 PERCENT CLEAN ECONOMY:
                   SOLUTIONS FOR THE U.S. POWER SECTOR

=======================================================================

                                 HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2019

                               __________

                           Serial No. 116-77
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                        
                        
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-924 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                          
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    87
    Prepared statement...........................................    88

                               Witnesses

Jim Matheson, Chief Executive Officer, National Rural Electric 
  Cooperative Association........................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................   138
Ralph Izzo, Chairman, President, and Chief Executive Officer, 
  Public Service Enterprise Group................................    21
    Prepared statement...........................................    23
    Answers to submitted questions \1\...........................   148
Lee Anderson, Government Affairs Director, Utility Workers Union 
  of America.....................................................    29
    Prepared statement...........................................    31
    Additional material submitted for the record \2\
    Answers to submitted questions...............................   151
Karen Palmer, Senior Fellow and Director, Future of Power 
  Initiative, Resources for the Future...........................    37
    Prepared statement...........................................    39
    Answers to submitted questions...............................   153
John Bear, Chief Executive Officer, Midcontinent Independent 
  System Operator, Inc...........................................    56
    Prepared statement...........................................    58
    Answers to submitted questions \3\
Jeffery S. Dennis, General Counsel and Managing Director, 
  Advanced Energy Economy........................................    71
    Prepared statement...........................................    73
    Answers to submitted questions...............................   156

                           Submitted Material

Editorial of October 29, 2019, ``California's energy nightmare 
  shows us why Texas must trust the free market,'' Dallas Morning 
  News, submitted by Mr. Flores..................................   128
Slides, ``Global Carbon Emissions ...,'' et al., submitted by Mr. 
  McKinley.......................................................   132

----------

\1\ Mr. Izzo did not answer submitted questions for the record by the 
time of publication.
\2\ Additional material submitted by Mr. Anderson has been retained in 
committee files and also is available at https://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=110174.
\3\ Mr. Bear's response to submitted questions for the record has been 
retained in committee files and also is available at https://
docs.house.gov/meetings/IF/IF03/20191030/110174/HHRG-116-IF03-Wstate-
BearJ-20191030-SD004.pdf.

 
  BUILDING A 100 PERCENT CLEAN ECONOMY: SOLUTIONS FOR THE U.S. POWER 
                                 SECTOR

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2322, Rayburn House Office Building, Hon. Bobby L. Rush 
(chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, Doyle, 
Sarbanes, McNerney, Tonko, Loebsack, Butterfield, Welch, 
Schrader, Kennedy, Veasey, Kuster, Barragan, O'Halleran, Blunt 
Rochester, Pallone (ex officio), Upton (subcommittee ranking 
member), Latta, Rodgers, McKinley, Kinzinger, Griffith, 
Johnson, Bucshon, Flores, Hudson, Walberg, Duncan, and Walden 
(ex officio).
    Also present: Representative DeGette.
    Staff present: Adam Fischer, Policy Analyst; Jean Fruci, 
Energy and Environment Policy Advisor; Cat Giljohann, FERC 
Detailee; Waverly Gordon, Deputy Chief Counsel; Omar Guzman-
Toro, Policy Analyst; Caitlin Haberman, Professional Staff 
Member; Rick Kessler, Senior Advisor and Staff Director, Energy 
and Environment; Brendan Larkin, Policy Coordinator; Jourdan 
Lewis, Policy Analyst; Elysa Montfort, Press Secretary; Alivia 
Roberts, Press Assistant; Tim Robinson, Chief Counsel; Nikki 
Roy, Policy Coordinator; Tuley Wright, Energy and Environment 
Policy Advisor; Rebecca Tomilchik, Staff Assistant; Mike 
Bloomquist, Minority Staff Director; Peter Kielty, Minority 
General Counsel; Mary Martin, Minority Chief Counsel, Energy, 
and Environment and Climate Change; Brandon Mooney, Minority 
Deputy Chief Counsel, Energy; Brannon Rains, Minority 
Legislative Clerk; and Peter Spencer, Minority Senior 
Professional Staff Member, Environment and Climate Change.
    Mr. Rush. The Subcommittee on Energy will now come to 
order.
    And the Chair now recognizes himself for 5 minutes for the 
purposes of an opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning to each of you, and good morning to all of the 
panelists.
    I want to thank you all for attending today's hearing 
entitled ``Building a 100 Percent Clean Economy: Solutions for 
the U.S. Power Sector.''
    Today's hearing is an extension of the subcommittee's 
series focused on expanding our Nation's clean energy economy. 
Further, it is a continuation of the committee's broader 
objective to identify pathways to a 100 percent clean energy 
future by the year 2050, as proposed by Chairman Pallone, 
Chairman Tonko, and myself.
    As we approach the year 2050, our Nation faces unique 
challenges in its efforts to address more energy production 
demands as well as the obligation to limit our contribution to 
climate change. In the United States, the greatest sources of 
greenhouse gas emissions that are directly linked to human 
activity are attributed to the burning of fuels for 
electricity, transportation, and the production of goods.
    The power sector, whose electricity generation is 
historically dependent on fossil fuels, accounts for nearly 30 
percent of all U.S. emissions. In view of this, it is important 
that the subcommittee evaluates what can be done to reduce that 
impact. Therefore, discussions concerning necessary steps to 
both meet rising energy demands while at the same time 
considering critical technology to reduce the impact of the 
power sector's immense carbon footprint are, to say the least, 
essential.
    Already diversification within the power generation sector 
has contributed to a 25 percent decrease in carbon dioxide 
intensity, and the opportunity exists to create further 
reductions by incorporating additional low- or zero-carbon 
sources of energy production. Further reductions in carbon 
dioxide emissions are contingent upon, and made possible by, 
variances among our energy sources.
    According to the National Renewable Energy Laboratory, 
renewables--like wind, nuclear, and solar--can help reduce 
carbon emissions and produce up to 80 percent of all U.S. 
electricity generation by the year 2050. However, in our haste 
to address the real threat proposed by climate change, we must 
make sure to effectively transition our workforce without 
leaving minorities and other vulnerable communities behind.
    My bill, the Blue and Green Collar Jobs Acts, would 
accomplish that, but this subcommittee can still gain much-
needed insight from our witnesses today on how Congress can 
make this transition more equitable and more just.
    So I welcome each and all of our witnesses, which includes 
our distinguished former Member, Mr. Jim Matheson, who was a 
former member of this committee and someone whom we all had 
found a lot of favor in working with during his tenure here in 
Congress.
    [The prepared statement of Mr. Rush follows:]

                Prepared Statement of Hon. Bobby L. Rush

    Good morning and I thank you all for joining us at today's 
hearing entitled, ``Building a 100 Percent Clean Economy: 
Solutions for the U.S. Power Sector.''
    Today's hearing is an extension of the subcommittee's 
series focused on expanding our Nation's clean energy economy. 
Further, it is a continuation of the committee's broader 
objective to identify pathways to a 100 percent clean energy 
future by 2050, as proposed by Chairman Pallone, Chairman 
Tonko, and myself.
    As we approach the year 2050, our Nation faces unique 
challenges in its efforts to address growing energy production 
demands as well as the obligation to limit our contribution to 
climate change. In the United States, the greatest sources of 
greenhouse gas emissions, those that are directly linked to 
human activity, are attributed to the burning of fuels for 
electricity, transportation, and the production of goods.
    The power sector, whose electricity generation is 
historically dependent on fossil fuels, accounts for nearly 30 
percent of all U.S. emissions. In view of this, it is important 
that the subcommittee evaluates what can be done to reduce that 
impact. Therefore, discussions concerning necessary steps to 
both meet rising energy demands while, at the same time, 
considering critical technologies to reduce the impact of the 
power sector's immense carbon footprint are essential.
    Already, diversification within the power generation sector 
has contributed to a 25 percent decrease in carbon dioxide 
intensity. The opportunity currently exists to create further 
reductions by incorporating additional low and zero carbon 
sources of energy production. Further reductions in carbon 
dioxide emissions are contingent upon, and made possible by, 
varying our energy sources.
    According to the National Renewable Energy Laboratory, 
renewables--like wind, nuclear, and solar--can help reduce 
carbon emissions and produce up to 80 percent of all U.S. 
electricity generation by 2050. However, in our haste to 
address the real threat posed by climate change, we must make 
sure to effectively transition our workforce without leaving 
minorities and other vulnerable communities behind. My bill, 
the Blue Collar and Green Collar Jobs Act, would accomplish 
that, but this subcommittee can still gain much-needed insight 
from our witnesses today on how Congress can make this 
transition more equitable and just.
    So I welcome each of our witnesses, which includes our 
distinguished former colleague Jim Matheson, to today's 
hearing. I look forward to engaging you on the best ways to 
accomplish these objectives. And now I recognize my friend and 
colleague, Ranking Member Upton, for his opening statement.

    Mr. Rush. And now I recognize my friend and my colleague, 
the Representative from the Great State of--the Wolverine 
State--Michigan, my friend, Ranking Member Upton, for an 
opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, my friend, Mr. Chairman.
    Today's hearing does examine an issue that this committee 
has spent a considerable amount of time on in the last couple 
of Congresses through our bipartisan ``Powering America'' 
hearing series.
    Now, while this hearing appears to be part of the 
majority's legislative effort to decarbonize the entire 
American economy by 2050, I would urge the chairman not to 
politicize the issue. We certainly owe it to our constituents 
to take this work seriously and work together.
    And, yes, over the last decade, the U.S. has become the 
world's leading processor of oil and natural gas. I am real 
proud of that. We import less and we are more energy secure 
today than ever before because of it. And thanks to hydraulic 
fracturing and the shale revolution, we are all reaping those 
benefits in the form of affordable and reliable supplies of 
energy from gasoline to electricity.
    We are also leading the world in carbon emission 
reductions, and we didn't need a top-down Federal mandate or a 
Waxman-Markey cap-and-trade bill. We owe it to the free market 
and competition for our tremendous progress to reduce 
emissions. And these are the facts that we should keep in mind 
as we hear proposals for new Federal mandates, carbon taxes, or 
complicated emission trading schemes.
    Our power sector has been at the forefront of significant 
changes as natural gas has overtaken coal as the primary fuel 
used to generate electricity for our homes, factories, and 
businesses across the country. And, with the rise of natural 
gas, we are seeing early retirements of base load coal and 
nuclear plants and increases in generation from intermittent 
renewables led by wind and solar.
    We are also seeing shifts in consumer preferences, in new 
technologies having been developed to monitor, store, and 
distribute energy across the grid. And, at the same time, 
increasing energy efficiency has kept electricity consumption 
relatively flat, even as our economy continues to grow.
    In its Annual Energy Outlook, the Department of Energy's 
Energy Information Administration, EIA, predicts a continued 
decline of electricity generation from both coal and nuclear 
power plants, with a significant shift toward natural gas and 
an increase in renewables. And by 2050, EIA predicts that 31 
percent of electricity will be produced from renewables across 
the country, 39 percent from natural gas, 12 percent from 
nuclear, and 17 percent from coal.
    Of course, as you would expect, these trends are not 
uniform across the country. They vary significantly by region, 
depending on available resources and market prices. What works 
in Michigan may not work in other parts of the country due to 
the climate or the amount of sunshine and wind that we receive. 
But we also must recognize that States, rather than the Federal 
Government, are the primary drivers of the trends that we see 
today, because many of them, certainly Michigan, have developed 
legally binding portfolio standards that require electricity 
suppliers to source their electricity from designated renewable 
sources or eligible technologies.
    We also have independent regional entities, authorized by 
FERC, that have developed complex market rules governing the 
operation of the electric grid.
    Thanks to the rise of affordable natural gas, improvements 
in efficiency, and the leadership of the States, carbon dioxide 
emissions are down about a third from the 2005 levels. 
Tremendous accomplishment. But I am confident that, with a 
balanced, market-driven policy, we will continue to make 
progress.
    As this committee examines the challenges and opportunities 
associated with reducing emissions from the power sector, I 
will be particularly focused on the issues that matter most to 
my constituents: the cost of electricity, the reliability of 
our electric grid, and the diversity of options for all 
consumers.
    We also need to have reality-based discussions on energy 
infrastructure, specifically how can we get it built within the 
reasonable timeframes and cost. The permitting process for 
energy generation, distribution, and transmission 
infrastructure, whether it be from a solar farm, a natural gas 
pipeline, offshore wind, or a transmission line, has got to be 
improved.
    While I don't agree with the proposals like the Green New 
Deal, if the majority is pursuing these kinds of radical 
transformations of our country's energy system, shouldn't 
getting infrastructure built as quickly and safely as possible 
be at the very top of their to-do list?
    I encourage all of us to talk to utilities, engineers, 
union workers, about the realities of infrastructure permitting 
and sit down with all of us to discuss how can we solve the 
problem.
    With that, I look forward to hearing from our witnesses 
today, and I yield back the balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared Statement of Hon. Fred Upton

    Thank you, Mr. Chairman. And thank you to our witnesses for 
appearing before us, especially those that have traveled from 
out of town to be with us today.
    Today's hearing examines an issue that this committee spent 
a considerable amount of time on last Congress through our 
bipartisan Powering America hearing series. While this hearing 
appears to be part of the majority's legislative effort to 
decarbonize the entire American economy by 2050, I would urge 
the chairman not to politicize this issue. We owe it to our 
constituents to take this seriously and work together.
    Over the last decade, the United States has become the 
world's leading producer of oil and natural gas. We import less 
and we are more energy secure today than ever before because of 
it. Thanks to hydraulic fracturing and the shale revolution, we 
are all reaping these benefits in the form of affordable and 
reliable supplies of energy--from gasoline to electricity.
    We are also leading the world in carbon emissions 
reductions, and we didn't need a top-down Federal mandate, or 
Waxman-Markey's cap-and-trade. We owe it to the free market and 
competition for our tremendous progress to reduce emissions. 
These are facts that we should keep in mind as we hear 
proposals for new Federal mandates, carbon taxes, or 
complicated emissions trading schemes.
    Our power sector has been at the forefront of significant 
change as natural gas has overtaken coal as the primary fuel 
used to generate electricity for our homes, factories and 
businesses across the United States. With the rise of natural 
gas, we are seeing early retirements of base load coal and 
nuclear plants and increases in generation from intermittent 
renewables led by wind and solar.
    We are also seeing shifts in consumer preferences and new 
technologies are being developed to monitor, store, and 
distribute energy across the grid. At the same time, increasing 
energy efficiency has kept electricity consumption relatively 
flat, even as our economy continues to grow.
    In its annual energy outlook, the Department of Energy's 
Energy Information Administration (EIA) predicts a continued 
decline of electricity generation from both coal and nuclear 
power plants, with a significant shift toward natural gas and 
an increase in renewables. By 2050, EIA predicts that 31% of 
electricity will be produced from renewables; 39% from natural 
gas; 12% from nuclear; and 17% from coal.
    Of course, as you would expect, these trends are not 
uniform across the country. They vary significantly by region 
depending on available resources and market prices. What works 
in my home State of Michigan may not work in other parts of the 
country due to the climate, or the amount of sunshine and wind 
we receive.
    We must also recognize that States--rather than the Federal 
government--are the primary drivers of the trends we see today, 
because many of them, including Michigan, have developed 
legally binding portfolio standards that require electricity 
suppliers to source their electricity from designated renewable 
resources or eligible technologies. We also have independent 
regional entities authorized by the Federal Energy Regulatory 
Commission (FERC) that have developed complex market rules 
governing the operation of the electric grid.
    Thanks to the rise of affordable natural gas, improvements 
in efficiency, and the leadership of the States, carbon dioxide 
emissions are down about a third from 2005 levels. This is a 
tremendous accomplishment, but I am confident with balanced, 
market-driven policies, we will continue to make progress.
    As this committee examines the challenges and opportunities 
associated with reducing emissions from the power sector, I 
will be particularly focused on the issues that matter most to 
my constituents: the cost of electricity, the reliability of 
our electric grid, and the diversity of options for consumers.
    We also need to have reality-based discussions on energy 
infrastructure--specifically, how we can get it built within 
reasonable timeframes and costs. The permitting process for 
energy generation, distribution, and transmission 
infrastructure--whether it is a solar farm, a natural gas 
pipeline, offshore wind, or a transmission line--has to be 
improved. While I do not agree with proposals like the Green 
New Deal, if the majority is pursuing these kind of radical 
transformations of our country's energy system, shouldn't 
getting infrastructure built as quickly and safely as possible 
be at the top of their ``to do'' list? I encourage them to talk 
to utilities, engineers, and union workers about the realities 
of infrastructure permitting--and then sit down with us to 
discuss how we can solve the problem.
    With that, I look forward to hearing from the witnesses 
today--especially Mr. Bear with the Midcontinent Independent 
System Operator, which is responsible for maintaining the 
reliability of the grid in 15 States, including Michigan. I 
look forward to discussing some of the more practical 
challenges and considerations, such as how these policies could 
impact affordability for consumers.
    Thank you. I yield back.

    Mr. Rush. The Chair thanks the gentleman for that brazenly 
nonpolitical opening statement.
    And now the Chair recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Rush.
    Today's hearing is the fifth in the committee's series on 
building a 100 percent clean economy by 2050. Each of these 
hearings has focused on a separate sector of our economy. And 
today we look at pathways to developing a 100 percent clean 
power sector.
    The power sector has made noticeable progress over the last 
15 years in reducing emissions from the facilities that deliver 
electricity to American homes and businesses. Its carbon 
emissions have fallen steadily since 2005 thanks to a gradual 
move away from coal to natural gas and renewable energy like 
wind and solar. In some respects, decarbonizing the power 
sector presents fewer challenges than other parts of the 
economy, but that does not mean it will happen overnight, 
especially if we electrify more aspects of the economy.
    And, as we have heard in the previous hearings, the pathway 
to net zero greenhouse gas pollution by 2050 relies on 
aggressively improving energy efficiency across all sectors, 
quickly electrifying as much of the economy as possible, 
developing and deploying low- and zero-carbon fuels where 
electrification is not possible, and switching to clean sources 
of generation for that electricity.
    Electrifying a wide range of services, processes, and end 
uses will be crucial to achieving our climate goals, but only 
if that electricity comes from clean sources. And electrifying 
more segments of the economy through the increased use of 
electric vehicles, heat pumps, and other technologies will be 
necessary to achieve a 100 percent clean economy.
    But this creates challenges even broader than the simple 
question of how we can incentivize more consumers to use these 
products. For example, a comprehensive transition to electric 
heat pumps over gas-fired furnaces would shift peak electricity 
load to the winter in many parts of the country, which presents 
several new challenges that would have to be addressed by power 
generators, and we will likely need more transmission to 
transport power across the country or in from the offshore.
    In the power sector, there are clear, achievable ways to 
get to 80 percent decarbonization, but it is the last 20 
percent that will be by far the biggest challenge. We must use 
all available tools. Getting to 100 percent will require a 
balanced portfolio of low- and zero-carbon technologies, 
including solar, wind, and nuclear power, as well as energy 
storage and carbon capture technologies. Without this balanced 
portfolio, deep decarbonization will happen at a slower pace 
and at a higher cost to homeowners and businesses.
    A solution that is unaffordable or technologically 
infeasible isn't really a solution at all. As we transition to 
a 100 percent clean economy, we must ensure that it does not 
harm people already struggling to afford their electricity 
bills.
    We have to also look to break down market barriers to clean 
electricity development. For example, in some parts of the 
country, monopoly utilities effectively prevent customers from 
installing and using rooftop solar. Over 70 percent of 
corporate renewable energy purchases occur in areas with 
competitive electricity markets, which illustrates the 
challenges that exist to renewable deployment in markets where 
one utility has a monopoly.
    And, while the power sector has made progress reducing its 
emissions, we need Federal action to expand and accelerate the 
transition to a 100 percent clean economy.
    There are several different policy options available to put 
us on a pathway to achieve this goal. Many States have 
implemented either a Renewable Portfolio Standard or a Clean 
Energy Standard to increase their proportion of clean and 
renewable power. And several States, including my own, New 
Jersey, have banded together to develop a mandatory market-
based program to reduce greenhouse gas pollution.
    So I would like to welcome Ralph Izzo, chairman and CEO of 
New Jersey's PSEG. Ralph has been a great partner in helping 
New Jersey address climate change and to modernize our energy 
systems.
    And I am also pleased to welcome back to the committee our 
friend and former colleague Jim Matheson. It is great to have 
you here, Jim, as well.
    So our goal today is to examine which policies have been 
most effective in reducing power sector emissions and to learn 
how we can build upon those successes on a national scale to 
successfully develop a 100 percent clean net power--or net zero 
power sector by 2050.
    And again, I thank you, Chairman Rush, for having this and 
other hearings in this effort to try to come up with a climate 
bill that is meaningful.
    Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Today's hearing is the fifth hearing in the committee's 
series on building a 100 percent clean economy by 2050. Each of 
these hearings has focused on a separate sector of our economy, 
and today we will look at pathways to developing a 100 percent 
clean power sector.
    The power sector has made noticeable progress over the last 
15 years in reducing emissions from the facilities that deliver 
electricity to America's homes and businesses. Its carbon 
emissions have fallen steadily since 2005 thanks to a gradual 
move away from coal to natural gas and renewable energy like 
wind and solar. In some respects, decarbonizing the power 
sector presents fewer challenges than other parts of the 
economy, but that does not mean it will happen overnight, 
especially if we electrify more aspects of the economy.
    As we have heard in previous hearings, the pathway to net 
zero greenhouse gas pollution by 2050 relies on aggressively 
improving energy efficiency across all sectors; quickly 
electrifying as much of the economy as possible; developing and 
deploying low- and zero-carbon fuels where electrification is 
not possible; and switching to clean sources of generation for 
that electricity. Electrifying a wide range of services, 
processes, and end-uses will be crucial to achieving our 
climate goals, but only if that electricity comes from clean 
sources.
    Electrifying more segments of the economy through the 
increased use of electric vehicles, heat pumps, and other 
technologies will be necessary to achieve a 100 percent clean 
economy. But this creates challenges even broader than the 
simple question of how we can incentivize more consumers to use 
these products. For example, a comprehensive transition to 
electric heat pumps over gas-fired furnaces would shift peak 
electricity load to the winter in many parts of the country, 
which presents several new challenges that would have to be 
addressed by power generators. And we will likely need more 
transmission to transport power across the country or in from 
offshore.
    In the power sector, there are clear, achievable ways to 
get to 80 percent decarbonization--but it's the last 20 percent 
that will, by far, be the biggest challenge. We must use all 
available tools. Getting to 100 percent will require a balanced 
portfolio of low- and zero-carbon technologies--including 
solar, wind and nuclear power--as well as energy storage and 
carbon capture technologies. Without this balanced portfolio, 
deep decarbonization will happen at a slower pace and at a 
higher cost to homeowners and businesses. A solution that is 
unaffordable or technologically infeasible isn't really a 
solution at all. As we transition to a 100 percent clean 
economy, we must ensure that it does not harm people already 
struggling to afford their electricity bills.
    We must also look to break down market barriers to clean 
electricity development. For example, in some areas of the 
country, monopoly utilities effectively prevent customers from 
installing and using rooftop solar. Over 70 percent of 
corporate renewable energy purchases occur in areas with 
competitive electricity markets, which illustrates the 
challenges that exist to renewable development in markets where 
one utility has a monopoly.
    While the power sector has made progress reducing its 
emissions, we need Federal action to expand and accelerate the 
transition to a 100 percent clean economy. There are several 
different policy options available to put us on a pathway to 
achieving this goal. Many States have implemented either a 
Renewable Portfolio Standard or a Clean Energy Standard to 
increase their proportion of clean and renewable power. And 
several States--including New Jersey--have banded together to 
develop a mandatory, market-based program to reduce greenhouse 
gas pollution.
    I'd like to welcome Ralph Izzo, chairman and CEO of New 
Jersey's PSEG. Ralph has been a great partner in helping New 
Jersey address climate change and modernize our energy systems. 
And I'm also pleased to welcome back to the committee our 
friend and former colleague, Jim Matheson. It's great to have 
you here, Jim.
    Our goal today is to examine which policies have been most 
effective in reducing power-sector emissions--and to learn how 
we can build upon those successes on a national scale to 
successfully develop a 100 percent clean, net zero power sector 
by 2050.

    Mr. Rush. The Chair thanks the chairman.
    The Chair now recognizes Mr. Walden, the ranking member of 
the full committee--he is on his way?
    All right. In that event, we will move forward to the 
witnesses, and when the ranking member comes in, then we will--
--
    Mr. Upton. He likes the term chairman, but that is OK.
    Mr. Rush. Well, I am sure he does, but he won't have it for 
a while.
    I would like to now welcome all of our witnesses to today's 
hearing. And I will introduce our witnesses.
    From my left, as I mentioned previously, we are really 
delighted to have our former Member, the Honorable Jim 
Matheson, who serves as the CEO of the National Rural Electric 
Cooperative Association, present with us.
    Next to Mr. Matheson is Mr. Ralph Izzo. I think that is how 
you pronounce it, Izzo. He is the chairman and president and 
CEO of the Public Service Enterprise Group, Incorporated, PSEG.
    Next to him is Mr. Lee Anderson. Mr. Anderson is the 
governmental affairs director for the Utility Workers Unions of 
America, AFL-CIO.
    And next to Mr. Anderson is Ms. Palmer--Ms. Karen Palmer. 
She is a senior fellow and director of the Future of Power 
Initiative at Resources for the Future.
    And then lastly but not least, we have next to Ms. Palmer, 
Mr. John Bear. He is the CEO of the Midcontinent Independent 
System Operator, Incorporated.
    And last but not least, Mr. Jim Dennis. Mr. Dennis serves 
as the general counsel and managing director for the Advanced 
Energy Economy.
    Thank you for joining us here today, and we look forward to 
each of your testimony.
    Before we begin, I would like to explain the lighting 
system that is before you. In front of you is a series of 
lights. The light will initially be green at the start of your 
opening remarks. The light will turn yellow when you have 1 
minute remaining. And please, at the yellow light, begin to 
wrap up your testimony. And then the light will turn red when 
your turn expires.
    And I will begin by asking our friend and former colleague, 
Mr. Matheson, to begin. You are recognized for 5 minutes.

 STATEMENTS OF JIM MATHESON, CHIEF EXECUTIVE OFFICER, NATIONAL 
 RURAL ELECTRIC COOPERATIVE ASSOCIATION; RALPH IZZO, CHAIRMAN, 
    PRESIDENT, AND CHIEF EXECUTIVE OFFICER, PUBLIC SERVICE 
 ENTERPRISE GROUP; LEE ANDERSON, GOVERNMENT AFFAIRS DIRECTOR, 
 UTILITY WORKERS UNION OF AMERICA; KAREN PALMER, SENIOR FELLOW 
  AND DIRECTOR, FUTURE OF POWER INITIATIVE, RESOURCES FOR THE 
   FUTURE; JOHN BEAR, CHIEF EXECUTIVE OFFICER, MIDCONTINENT 
   INDEPENDENT SYSTEM OPERATOR, INC.; AND JEFFERY S. DENNIS, 
 GENERAL COUNSEL AND MANAGING DIRECTOR, ADVANCED ENERGY ECONOMY

                   STATEMENT OF JIM MATHESON

    Mr. Matheson. Well, thank you. Thank you, Chairman Rush and 
Ranking Member Upton. I really appreciate the opportunity to 
return before this committee that I proudly served for 8 years.
    Simply put, America's electric cooperatives are focused on 
responsibly delivering reliable and affordable electricity. 
And, as you know, when you are a cooperative, you are built by 
and you belong to each community that you serve. So each 
cooperative is different, based on their community's specific 
needs.
    Historically, electric co-ops proudly shouldered the 
responsibility of bringing electricity to rural communities, 
and this obligation is not without its challenges today.
    Sparsely populated communities are more expensive to serve 
and provide less revenue compared to those areas served by 
investor-owned or municipal utilities. On average, for every 1 
mile of distribution line that a electric co-op serves, it is 
only 8 consumers, and we collect about $19,000 of revenue a 
year.
    For the rest of the utility sector combined, it is 4 times 
that: 32 customers per line, roughly $79,000 in annual revenue. 
And yet, 1 in 8 Americans are served by an electric 
cooperative.
    Importantly, electric cooperatives serve 92 percent of the 
Nation's persistent poverty counties.
    So these factors make it especially important for co-ops to 
keep electric rates affordable, maintain reliability, and 
improve sustainability as they explore all ideas to meet the 
evolving energy needs of their local communities.
    Diversity of electric generation, including base load 
resources, is essential to meeting co-op members' expectations. 
Co-ops have and will continue to diversify their energy 
portfolios, with the majority of their power now coming from 
low- and no-emissions resources.
    For example, electric co-op solar capacity has more than 
quadrupled since 2016. This is due to in large part to a 
partnership between DOE, NRECA, and 17 co-ops, reduced the cost 
of solar installations, addressed deployment barriers, and 
developed financing models and other resources.
    Just last week, DOE selected NRECA, in partnership with the 
Pacific Northwest National Laboratory, to research small-scale, 
community-based wind energy that can similarly be deployed by 
electric co-ops. Interest among electric co-ops in deploying 
energy storage is also growing and should accelerate as more 
experience is gained, costs decline, and battery performance 
improves.
    Hydropower and nuclear energy also remain an essential 
source of zero-emission generation for electric cooperatives in 
certain regions.
    Knowing that both natural gas and coal will continue to 
play an important role in providing affordable and reliable 
electricity in a carbon-strained future, electric co-ops are 
actively engaged in carbon capture research and development.
    As not-for-profit utilities, all costs incurred by a co-op 
are ultimately passed on to our consumer members, and that is 
why co-ops are committed to generating power as efficiently and 
cost effectively as possible. It is also why we are 
particularly attuned to the potential for stranded assets. We 
have no shareholders to help shoulder that type of burden.
    Actions taken by co-ops continue to meet the resource needs 
of their communities and have also resulted in significant 
reductions in carbon dioxide emissions. CO<INF>2</INF> 
emissions in 2017 from co-op-owned generating facilities were 
12 percent below 2005 levels, even as co-op electric generation 
increased during that time. And, of course, the whole U.S. 
electric sector has decreased its CO<INF>2</INF> emissions to 
around 1988 levels, and it is well positioned to contribute to 
CO<INF>2</INF> reductions in other sectors through beneficial 
electrification.
    There are meaningful opportunities for further 
electrification of commercial, industrial, and agricultural 
applications, which would significantly reduce carbon emissions 
economywide.
    Responsibly providing reliable, affordable electricity 
remains the shared commitment of all NRECA members, but a 
technology program or policy that works for one co-op might not 
work for another.
    Ultimately, and most importantly, every co-op's resource 
mix is unique to the needs of that co-op and will continue to 
vary greatly depending on existing resources and assets, the 
impact on electricity costs for its member-consumers, 
reliability implications, the availability of alternative 
electric generation, and other local circumstances.
    So having the flexibility to implement energy solutions 
across the many regions where cooperatives serve is a critical 
factor for today and for the future of our members.
    So policymakers should be mindful of this and ensure that 
any proposals that this committee considers provide long-term 
certainty and that flexibility that maintains energy diversity 
for electric co-ops, that protects reliability of the electric 
grid, and minimizes undue economic impact for consumers.
    Again, I appreciate this opportunity. I look forward to 
taking your questions.
    [The prepared statement of Mr. Matheson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Next, we will have Mr. Izzo.
    Mr. Izzo, you are recognized for 5 minutes for an opening 
statement.

                    STATEMENT OF RALPH IZZO

    Mr. Izzo. Good morning, Subcommittee Chair Rush, Ranking 
Member Upton, and good morning and thank you to full committee 
Chairman Pallone for his greeting.
    As was mentioned, my name is Ralph Izzo, and I am the CEO 
and chairman of New Jersey-based Public Service Enterprise 
Group. We are the parent company of the State's largest 
electric and gas utility, serving millions of customers in most 
of the State's major urban areas.
    Our subsidiary, PSEG Power, owns 12,000 megawatts of 
generation across the northeast and Midatlantic. Power's fleet 
ranks third-lowest in carbon intensity among the country's 
major generators, at about half the national average.
    Thank you for holding this hearing and for the bigger task 
you are undertaking to steer us toward a 100 percent clean 
economy by 2050.
    In the 10 years since Congress last considered the topic of 
climate change, my company has continued to make progress. We 
have worked with our State to preserve at-risk nuclear 
generation, which supplies over 90 percent of New Jersey's 
carbon-free electricity. We have invested over $1.7 billion in 
solar energy. We have closed our New Jersey coal plants and 
will close our only remaining coal unit, which is located in 
Connecticut, by the middle of 2021.
    We have proposed bringing energy efficiency and other 
elements of a clean-energy future to our New Jersey customers 
at a historic scale.
    Last summer, we committed to reducing our power plant 
emissions 80 percent below 2005 levels by 2046. And with 
advances in technology, customer behavior, and public policy, 
we believe we can achieve our vision of net zero carbon 
emissions from our fleet by 2050.
    As to why Federal action is needed, I frequently ask this 
riddle: Is the current cost of emitting carbon dioxide in New 
Jersey $0 a ton, $5 a ton, $17 a ton, $100 a ton, or $400 a 
ton?
    Sadly, the answer is all of the above. Here is how. Our 
regional energy market, PJM, does not include carbon in its 
electricity price, so the cost of emission is zero. But under 
the Regional Greenhouse Gas Initiative, the carbon cost is 
around $5 per ton for an emissions credit.
    In New Jersey, the zero-emission credit for existing 
nuclear translates to a carbon cost of $17 per ton.
    At the highest end, renewable energy credits needed to meet 
a renewable portfolio standard for offshore wind and solar 
produce carbon costs closer to $400 and $100 per ton.
    In the absence of a national price on carbon, we are left 
with economic inefficiency that translates to customers as a 
cost. It is time for Congress to bring the consistency that 
only a national program can provide.
    In addition to a price on carbon, there are other near-term 
actions to consider. We must ensure Federal policy does not 
undo State efforts to preserve clean energy, including existing 
nuclear. Nuclear energy provides over half the Nation's carbon-
free electricity. But low natural gas prices have put many 
plants on the brink of closure.
    Much is at stake as FERC weighs fundamental change to the 
PJM capacity market, and some options would worsen the 
economics for at-risk plants, to the detriment of the 
environment and the resilience of our regional power supply.
    Secondly, I can think of no more urgent priority than doing 
all we can to reduce carbon emissions through energy 
efficiency. When these efforts are led by the regulated 
utility, the savings can more than offset the cost of the 
investment, thus carbon reductions can be achieved this way at 
$0 per ton.
    Congress can leverage the power of utilities as a 
transformative investor by providing Federal dollars through a 
LIEAP-like program to States that aggressively move in this 
direction. These funds could help ease the burden on low-income 
customers of other, more expensive strategies. A model program 
already in the LIFT Act for methane could be expanded for this 
purpose.
    But make no mistake, the shortest path to a net zero 
economy requires setting a national price on carbon. This is 
what will drive the innovation needed to achieve our goals. 
This is what allows us to end technology-specific subsidies 
that layer on additional costs. And this is what will help 
drive emissions reductions through market mechanisms, not just 
from the power sector but economywide, with the utmost obvious 
opportunity coming from the electrification of the 
transportation sector.
    A national price on carbon could take many forms. Cap-and-
trade concept is market-based and proven and deserves another 
look. In the alternative, an upstream emissions fee could 
generate as much as $250 billion per year for consumer 
dividends, debt reduction, or R&D.
    I am pleased to continue this discussion during the Q&A. 
Thank you for your time.
    [The prepared statement of Mr. Izzo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes Mr. Anderson for 5 
minutes.

                   STATEMENT OF LEE ANDERSON

    Mr. Anderson. Thank you, Chairman Rush, Ranking Member 
Upton, and distinguished members of the committee.
    My name is Lee Anderson, and I am the government affairs 
director for the Utility Workers Union of America.
    The Utility Workers Union represents more than 50,000 
workers in the electric, gas, nuclear, and water utility 
sectors. In the power sector specifically, our members maintain 
electric generation assets including nuclear, coal, natural 
gas, and liquid fuel power plants, as well as utility-scale 
wind farms, solar arrays, and energy storage facilities. We 
also have substation operations, above- and below-ground line 
crews, and even tree-trimming crews.
    It is a truism at this point that the manner in which the 
world generates electricity is evolving rapidly. In America, 
ever more coal and nuclear assets are being taken offline every 
year, with natural gas and renewable generation expanding.
    Abroad, other countries are expanding coal and nuclear 
power alongside gas and renewables, as their rapidly growing 
economies demand ever more energy to make them function.
    The Utility Workers Union recognizes that change is being 
driven by economics, by the recognition that global climate 
change is happening, and that it is the result of manmade 
carbon emissions.
    Our union is made up of highly skilled people whose 
everyday work involves thinking like an engineer, a mechanic, a 
scientist.
    We ask how do we engineer our way through this challenge, 
not how do we argue or vote our way out of this. In answering 
this question, there are both opportunities and challenges in 
the power sector.
    For our union, the polestar in understanding the science of 
climate change and the appropriate response to it is the 
Intergovernmental Panel on Climate Change. Bringing together 
the world's leading climate scientists to understand the 
problem and the necessary responses seems the obvious starting 
point.
    One such response that, according to the IPCC, is 
indispensable to our ability to combat a changing climate is 
carbon capture. In their reporting, the IPCC has stated that 
less than 50 percent of their climate models can achieve a 450-
parts-per-million CO<INF>2</INF> target by the year 2100 
without the widespread use of carbon removal technologies and 
power generation and industrial processes. For those models 
that do achieve the goal without its use, the price increases 
by 138 percent.
    In the nuclear fleet, there are still over 90 nuclear power 
plants in operation across the U.S. And taken together, this 
fleet already provides over half of America's carbon-free 
electricity. Unfortunately, our union's experience is 
increasingly informed by the closure of nuclear facilities.
    To date, UWUA members have lost some of the best jobs in 
the power sector due to nuclear closures in California, 
Massachusetts, and Michigan, with additional closures slated to 
occur at an additional facility in Michigan, as well as in New 
York.
    We are losing already-built zero-carbon facilities that 
could be kept online to obviate the need to build whole new 
systems from scratch.
    In renewable energy, America's demand is, of course, 
growing. Our only Power for American Training Trust, or P4A as 
we call it, has developed the country's first Department of 
Labor-certified apprenticeship program in renewable energy that 
includes training for apprentices across three technologies: 
Wind, solar, and battery storage systems.
    So today we see a consensus growing that a net zero 
emissions philosophy is needed. Even civilization is deeply 
complex, and it will always have a carbon----
    However, although we must decarbonize our economy, we must 
do so in a manner that does not crash the economy. The closure 
of a power plant means the loss of many hundreds or even 
thousands of jobs for people directly employed in these large 
facilities and their supply chains.
    Increasingly, entire regions and ways of life are changing 
too rapidly for individuals and small communities to adapt on 
their own. We must recognize the contribution made by these 
workers to build this Nation and aid them in making this 
change.
    So in summary, we see reason for optimism but also reasons 
to be cautious. The technology already exists to retain and 
build out low- or zero-carbon power generation. There is 
nothing which needs to be invented from scratch, only systems 
which need to be scaled, improved, or in some cases simply 
retained.
    I thank you for the opportunity today to be a part of these 
proceedings, and I look forward to answering your questions.
    [The prepared statement of Mr. Anderson follows:]\1\
---------------------------------------------------------------------------
    \1\ Additional information submitted by Mr. Anderson has been 
retained in committee files and also is available at https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=110174.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Rush. The Chair now recognizes Ms. Palmer for 5 
minutes.

                   STATEMENT OF KAREN PALMER

    Ms. Palmer. Thank you.
    Chairman Rush, Ranking Member Upton, and distinguished 
members of the subcommittee, my name is Karen Palmer, and I am 
a senior fellow and director of the Future of Power Initiative 
at Resources for the Future.
    RFF is an independent, nonprofit research institution in 
Washington, DC. Our mission is to improve environmental, 
energy, and natural resource decisions through impartial 
economic research and policy engagement. The views I express 
here today are my own and may differ from those of others at 
RFF. RFF does not take positions on specific legislative 
proposals.
    This hearing is timely and takes place against the backdrop 
of a rapidly evolving power sector shaped by policy and 
economics. Emissions from the power sector are down 27 percent 
from 2005 levels, due to a combination of falling costs for 
lower-emitting natural gas and renewables, and State and 
Federal policies.
    However, without further policy intervention, the power 
sector will fall far short of the 100 percent net-zero emission 
goal put forward by the committee leadership. In this 
testimony, I am going to offer a discussion of relevant policy 
options and some potential challenges that need to be addressed 
along the way.
    Economic theory and experience indicate that the most cost-
efficient policy solutions are those that introduce a price for 
carbon emissions, either through a carbon tax or cap-and-trade 
program. An economywide price on carbon makes carbon-intensive 
fuels more expensive than those with lower carbon content, 
sending an economic signal to reduce emissions through the 
entire economy.
    When carbon pricing is applied to the electricity sector, 
all emissions are priced consistently, enabling a wide range of 
reduction strategies.
    In comparing climate policy options, the greater the number 
of available options to reduce emissions, the lower the overall 
cost of the policy.
    Carbon pricing policies can raise substantial revenue, and 
how such revenue is used affects the outcomes driven by the 
policy. Decisions about the use of revenues involve tradeoffs 
among efficiency, emissions reductions, and distributional 
outcomes.
    Another option would be to build on the success of 
Renewable Portfolio Standards that have been implemented at the 
State level to require a fully renewable sector by 2050. 
However, renewables-only policy would reduce emissions at 
relatively higher costs than a more technology-inclusive 
policy, such as a clean energy standard, which would credit 
additional zero- or low-carbon generation, such as nuclear, or 
coal or natural gas fitted with carbon capture.
    RFF bottling of proposed CES policies has shown that a CES 
would put the power sector well on its way to full 
decarbonization with modest effects on electricity rates, 
approach the cost efficiency of a carbon price, and increase 
retail electricity rates by less than an equivalent carbon 
pricing policy that does not use its revenue for electricity 
rate reduction.
    An alternative approach would be to clarify EPA's existing 
authority to regulate greenhouse gas emissions from stationary 
and mobile sources under the Clean Air Act. Congress could 
specify emission reduction targets, reaffirm the Clean Air Act 
as a mechanism that can be used, and clarify both the relevant 
sections of the statute and that carbon pricing and other 
market mechanisms would constitute valid approaches.
    Transitioning to a decarbonized electricity sector raises 
some important challenges to traditional approaches to 
electricity system operations and wholesale electricity 
markets. But these challenges are not insurmountable.
    First, a high penetration of renewables can be expected to 
drive wholesale energy prices to zero in many hours of the day. 
Markets may need to be altered in order to promote new 
investment while delivering power reliably and at low cost.
    Second, maintaining a reliable grid with high penetration 
of intermittent renewables will likely require a build-out of 
bulk energy storage and more flexible electricity demand 
activated by greater time-varying prices.
    Newly electrified loads, such as electric vehicles, may be 
an important source of flexible demand to aid renewables 
integration.
    Third, targeting electricity-sector emissions in isolation 
from the rest of the economy could discourage electrification 
of our sectors, such as transportation and buildings. Ideally, 
simultaneous efforts to address carbon emissions from these 
sectors would be put in place.
    In closing, I note that climate policy outcomes are certain 
to involve a portfolio of these measures at Federal, State, and 
local levels. This policy mix may be desirable for various 
reasons, such as to promote innovation, achieve local air-
quality improvements, or achieve better distributional 
outcomes. Policies should be designed in anticipation of 
overlapping influence to maximize the effectiveness of the 
entire portfolio.
    Notably, meeting the environmental challenge before us is 
not totally unprecedented. Though these emission targets are 
ambitious, so too were targets under the Clean Air Act in 1970, 
which addressed multiple pollutants across the economy and for 
which technologies to achieve emission reductions did not exist 
at that time. The dramatic declines in air pollution achieved 
under the act happened at the same time the U.S. economy grew 
16-fold and as the population grew by roughly 150 percent.
    I look forward to addressing your questions today.
    [The prepared statement of Ms. Palmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes Mr. Bear for 5 minutes.

                     STATEMENT OF JOHN BEAR

    Mr. Bear. Good morning.
    Chairman Rush, Ranking Member Upton, and members of the 
subcommittee, I am John Bear. I am the chief executive offer of 
the Midcontinent Independent System Operator, or MISO. It is a 
pleasure to be with you today as you consider the future of 
renewable energy and its impact on our Nation. I hope you will 
find MISO's insights useful in your work in shaping U.S. energy 
policy.
    MISO is a regional transmission organization, commonly 
referred to in the industry as an RTO. In fact, we were the 
first RTO approved by FERC in 2001. RTOs were established to 
independent entities, and we put a priority on maintaining that 
independence. We are fuel-source neutral and policy neutral, 
meaning we don't favor, prefer, or advocate for any fuel or 
policy outcome.
    That doesn't mean, however, that we are disinterested 
observers. MISO is a 501(c)(4) not-for-profit social welfare 
organization with responsibility for ensuring the reliability 
of the high-voltage electric transmission system to deliver 
low-cost energy to consumers.
    The topic of this hearing, the role of renewable energy, 
can have a direct impact on both the reliability of the system 
and the value created for consumers.
    The system that MISO operators, including 72,000 miles of 
transmission lines, 175,000 megawatts of generation, is the 
largest in North America in terms of geographical scope. We 
serve 42 million people across all or part all of 15 States, a 
Canadian province, and border from Canada to the Gulf of 
Mexico. This vast footprint provides for tremendous diversity 
in terms of the types of resources, State policies, weather 
patterns, and, notably, perspectives and viewpoints across our 
stakeholder committees that are crucial to us solving today's 
complex challenges.
    On this topic, we have stakeholder sectors that include 
utilities that are having to respond to customer demands for 
100 percent renewable energy, others that are responsible for 
approving the State and resource plans that ensure the utility 
has those type of resources in its fleet, and yet others that 
represent end-use customers and that interest and appropriately 
remind us that customers are still paying to have reliable 
power and the resources that are contemplated being replaced by 
new green resources whose cost will be borne by those same 
customers.
    Our fleet is evolving, and it is evolving significantly. 
MISO has experienced significant fleet evolution over the last 
15 years, going from 80 percent coal to 50 percent coal, 7 
percent gas to 30 percent gas, zero percent wind to 8 percent 
wind, and is increasing.
    The required innovative changes to our planning, our 
markets, our operations to maintain reliability along the way--
and we continue to learn and adapt in response to the 
associated impacts of low reserve margins, degrading unit 
performance, increased reliance on variable generation, and 
what that means to us.
    We see several macro trends, and we expect the transition 
to more renewable energy to continue to be driven by those 
three macro trends. We call them the three d's: 
demarginalization, decentralization, and digitization.
    Our work to understand the implication of these trends has 
identified the future needs to reliably meet these challenges: 
improved availability, improved flexibility, and improved 
visibility.
    We have conducted a Renewable Integration Impact 
Assessment--we call it RIIA--and it really has been informed by 
our future planning scenario and the requests that we have 
received for new resources to connect to our grid.
    Three years ago, we started a study with our stakeholders 
to identify the inflection points of these increasing levels of 
renewable penetration, what were the implications on our 
policies, our procedures, and the attributes that we needed our 
assets to demonstrate.
    Thus far, our findings reveal that it is very manageable, 
to a 30 percent renewable level. However, at 40 percent the 
integration complexity goes up significantly, and we have got a 
lot of things to think about in terms of how to accomplish that 
in a reliable and cost-effective manner. New processes and 
market products are required, new pricing regimes are required, 
and the potential role of new technologies that can help 
mitigate these system risks, system stability attributes, and 
transfer capability.
    Our industry engagement has been very strong, not just here 
in the United States but also across the globe. As a member of 
a group called the Geo 15, which is the largest market and grid 
operators across the planet, we are all dealing with very 
similar problems as we see significant increase in renewable 
portfolios.
    In terms of how we think about things in the past and how 
we are going to think about things in the future, significant 
changes are taking place. In the past, we planned for the peak 
hour of a peak day, and we assumed that the resources would be 
there all year long when we needed them.
    With renewable and intermittent portfolio increases, that 
is not true anymore. Now it is about availability, how much 
assets--where are the assets, and are they available? Pricing 
mechanisms are critical, as Ms. Palmer noted. We are seeing 
demarginalization take place to the point where we need to 
think about how to price these attributes so that the assets 
are incented to provide what we need them to provide at that 
time that we need them to provide that.
    Again, our steady work and our information-gathering 
experience have helped to identify these changes in these 
attributes that we need, and they show a further paradigm shift 
going forward.
    With that, I look forward to your questions.
    [The prepared statement of Mr. Bear follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes our final witness for an 
opening statement.
    Mr. Dennis, you are recognized for 5 minutes.

                 STATEMENT OF JEFFERY S. DENNIS

    Mr. Dennis. Thank you.
    Chairman Rush, Ranking Member Upton, and members of the 
subcommittee, it is an honor to testify today on the 
opportunity to utilize clean, advanced energy technologies to 
decarbonize the power sector in the U.S. economy.
    My name is Jeff Dennis, and I am general counsel and 
managing director at Advanced Energy Economy.
    AEE is a national organization of businesses making the 
energy we use secure, clean, and affordable. Advanced energy 
technologies include energy efficiency, demand response, solar, 
wind, energy storage, and electric vehicles, to name just a 
few.
    AEE also manages the Advanced Energy Buyers Group, a 
coalition of large electricity consumers interested in 
increasing their purchases of advanced energy.
    AEE strongly supports this committee's efforts to undertake 
a broad review of policy options for decarbonizing the power 
sector and reaching net-zero carbon emissions by 2050. We 
welcome the opportunity to work with the committee as it 
explores these policy options.
    This conversation comes at a time when advanced energy 
technologies have become the most cost-effective resources on 
the grid. This innovation success story means that we can 
transition to a 100 percent clean power sector and save 
consumers money rather than driving up their costs.
    Advanced energy technology costs have fallen so sharply 
that investing in new wind and solar resources can be more cost 
effective than continuing to pay the operating costs of some 
traditional generating technologies.
    For example, recent research shows that retiring the vast 
majority of the existing coal fleet by 2025 and replacing it 
with local wind and solar would lower electric bills across the 
United States while reducing carbon emissions substantially.
    Advanced energy technologies are also reliable and provide 
enhanced resilience in the face of extreme weather and other 
threats to the grid and fuel supplies.
    For example, earlier this month, over 700 megawatts of 
flexible demand response resources were deployed to maintain 
reliability in the Midatlantic States during an unusual hot 
weather event which occurred during a period when many 
traditional technology resources are shut down for maintenance.
    Advanced energy is already a $238 billion industry in the 
United States, supporting 3.5 million American jobs, spread 
across all 50 States, in both rural and urban communities and 
in communities that previously relied on fossil-fuel-based 
industries.
    States, utilities, and large electricity consumers are 
acting to capture the economic and reliability advantages of 
switching to advanced energy. State policy changes and large 
corporate customer commitments, in fact, are the primary 
drivers of growth in the advanced energy market and resulting 
reductions in carbon emissions.
    While each State is unique, some of the common policy 
approaches States are pursuing today include expanded renewable 
and clean energy standards, improved utility resource planning, 
and allowing for customer choice and competition in retail 
service.
    In addition, since 2008, commercial and industrial 
customers have signed contracts to procure 22 gigawatts of 
renewable energy, including a record 7.15 gigawatts so far this 
year.
    In addition to renewables, these large corporate customers 
are also increasing their investments in energy efficiency, 
demand response, distributed energy, and energy storage.
    Federal leadership can build on these trends. In addition 
to the longer-term policy options we will discuss today, 
improving competition in the federally regulated wholesale 
electricity markets is an important near-term opportunity. When 
wholesale markets allow all technologies to compete based 
solely on price and performance, least-cost advanced energy 
technologies win and displace high-emitting power plants, 
driving down power sector emissions and lowering prices for 
consumers.
    Too often, however, the rules and regulations in wholesale 
markets either implicitly or explicitly preclude advanced 
energy technologies from fully participating.
    Progress has been made in removing barriers to advanced 
energy in wholesale electricity markets, including important 
actions to open markets to energy storage and ensure that 
resources like energy efficiency aren't excluded.
    But continued action by FERC and Congress is necessary to 
ensure that wholesale markets are technology neutral and 
capture the benefits of advanced energy.
    Doing so would unleash significant market-based investment 
in clean energy, more energy innovation, reduced emissions, and 
lower consumer costs.
    Thank you for the opportunity to be here today, and I look 
forward to the discussion.
    [The prepared statement of Mr. Dennis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank all of the witnesses.
    And I will now recognize the ranking member, whose recent 
announcement sent the stock markets reeling--Mr. Walden is 
recognized for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Wow. Yes, I didn't know that happened. Maybe I 
should reconsider. No. No, I am not. Actually, it is only down 
13 points.
    So thank you, Mr. Chairman. Appreciate that. And I really 
appreciate you holding this hearing today. I think it is an 
important one as we examine the opportunities and challenges 
associated with modernizing our electric grid.
    And I want to thank our witnesses for being here.
    We had another hearing going on downstairs in the Health 
sub that I had to stay for a little longer--the Health sub, I 
guess it is.
    Today's hearing is obviously a part of a series the 
majority scheduled to look at all of these opportunities and 
challenges and the transformations that some policies propose. 
And I have a great belief in American ingenuity and get-it-done 
attitude and all of that. But I also want to make sure that, as 
policies move forward, we put the consumer first as we work on 
reducing emissions. I think we have to do that. Cost matters.
    We have seen different strategies play out in both 
different States and different countries. And some of them are 
working better than others. And there are actually wonderful 
laboratories you can go look at and go, ``Ahh, we don't want to 
do that necessarily, or maybe we want to do this.'' But we have 
to make sure that the grid is safe and secure and adequate. We 
did a lot of work on that in last Congress and the one before, 
as you integrate new energy sources in.
    And as I have said before, Mr. Chairman, Republicans are 
more than willing to sit down with you and work on some of 
these issues, and I know there is a lot to be done.
    But the stakes are high. Our grid is facing many new and 
emerging challenges, and the potential to significantly impact 
grid reliability and increase prices for consumers could result 
if we make the wrong choices.
    Base load coal-fired and nuclear power plants are closing 
around the country at a record pace. I know in Europe, they 
have put a lot of renewables on, but they have taken nuclear 
off. So, in some cases, it is a sort of net zero, in effect, in 
terms of what they are trying to do there.
    We are relying more and more on natural gas for electricity 
than ever before, and yet we are facing all kinds of pipeline-
siting bottlenecks and permitting challenges that affect 
reliability of natural gas supply, both for heating and for 
electricity generation. And then we have some politicians that 
then attack the companies who are trying to build the pipelines 
to get gas to their areas who are not getting gas to their 
areas in adequate amounts. And it is like, you know, you can't 
have it both ways.
    Electricity generation from intermittent renewable 
resources is also on the rise. And I know in the northwest, for 
a long time we had a little more flexibility, with the dams and 
the river system as a battery, but most of that is gone out of 
the system now for all kinds of reasons. And so we have to make 
sure that we can deal with that.
    As these trends continue, we will need a tremendous amount 
of new solar panels, new wind farms, more electricity storage, 
more high-voltage transmission lines. We will also need more 
natural gas pipelines, and the industry must develop 
commercially viable grid-scale storage and advanced 
technologies for distributed energy resources and demand 
response.
    I think we also have to deal with serious physical threats. 
We have all been in briefings and hearings about the cyber 
threats, about the severe weather threats, and tragically 
watching what is happening in California and the threats and 
the loss of life there year after year. Over the past several 
weeks, we have seen millions of people without power and 
affected and moved out of their homes because of the fires.
    And while some say California's policies are partially to 
blame to forcing utilities to redirect resources away from 
basic maintenance and for making it difficult to manage 
vegetation on rights-of-way, the facts of the matter is that 
people are suffering, and a one-size-fits-all policy is not 
going to solve that.
    So there is a lot of work to do. And I think nuclear has to 
play a key role in this. The committee has worked in the past 
and under Chairman's Upton's leadership, and in the last 
Congress mine, to try and figure out what can we do to advance 
new technology for nuclear power. You want zero emissions, it 
is right there. And we can have base load power, but we know 
that is a bit in the distance.
    I am told, for example, in South Korea, I think they can 
site a new nuclear facility in just a few years for a couple 
billion dollars, and here it is a few lifetimes and 10 or 15 
times that. And so other countries are kind of figuring this 
out, and I think we have got to take a look at what they do.
    So, Mr. Chairman, thank you for indulging my tardiness in 
getting here. Thanks for your leadership on this issue and your 
friendship, and I look forward to the discussion continuing.
    And I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Mr. Chairman, thanks for holding today's hearing to examine 
the challenges and opportunities associated with modernizing 
our Nation's electric grid. I would also like to thank our 
witnesses for appearing before us today.
    Today's hearing is part of a series that the Majority is 
holding to identify the paths to decarbonizing the American 
economy by 2050. Last week, we heard the chairman say that this 
``will be one of the most ambitious, challenging and necessary 
transformations our country has ever attempted.'' While I 
believe in American ingenuity and hard work, the kind of 
transformation that the chairman's words suggests signals a 
radical upheaval of our energy systems at a scale that sounds 
an awful lot like the policies of the ``Green New Deal.''
    As policymakers, I believe we should be putting our 
constituents first. I also believe that we should be focused on 
pragmatic policy solutions, rather than catchy slogans, to 
ensure our constituents can have more affordable, more 
reliable, and more diverse options for electricity.
    As I've said before, Republicans are ready to get to work 
on real solutions for the real problems facing our constituents 
today--the ones that they are talking about around their 
kitchen tables. Mr. Chairman, Green New Deal-style policies 
will be disastrous for grid security, jobs, and our economy. I 
urge you to work with Republicans and return to the bipartisan 
approach to electricity policies that we began together during 
our Powering America hearings last Congress.
    The stakes are too high to go it alone. Our grid is facing 
many new and emerging challenges that have the potential to 
significantly impact grid reliability and increase prices for 
consumers.
    Base load coal-fired and nuclear power plants are closing 
around the country at record pace. We are relying more on 
natural gas for electricity than ever before, while pipeline 
bottlenecks and permitting challenges threaten the reliability 
of natural gas supplies. Electricity generation from 
intermittent renewable resources is also on the rise, which is 
straining the grid and, at times, distorting electricity 
markets.
    As these trends continue, we will need a tremendous amount 
of new solar panels, new wind farms, more electricity storage, 
and more high-voltage transmission lines. We will also need 
more natural gas pipelines, and the industry must develop 
commercially viable grid-scale storage and advanced 
technologies for distributed energy resources and demand 
response.
    We must also deal with serious physical threats, cyber 
threats, severe weather, and wildfires. Over the last several 
weeks, millions of people in California have had their power 
disconnected as the electric utility struggles to deal with 
high wind and wildfires.
    While some are saying that California's environmental 
policies are partially to blame for forcing the utility to 
redirect resources away from basic maintenance, and for making 
it difficult to manage vegetation along rights-of-way, the fact 
of the matter is that people are suffering and a one-sized-
fits-all climate policy won't solve it.
    While I am aware that some investor-owned utilities are 
setting ambitious climate-related goals--often as a result of 
activist shareholders--there are important caveats.
    In many cases, these plans rely on an expensive price on 
carbon and new technologies that haven't even been invented 
yet. These plans also rely on a strong nuclear fleet, 
increasing reliance on natural gas, a lot more wind and solar, 
and the development of commercially viable grid-scale storage.
    While it's nice to have these aspirations, we must be 
honest about the challenges to grid resilience and reliability, 
and we must be transparent about the costs to consumers. What 
works for a utility in our coastal urban centers may not be a 
good fit for those in rural America.
    Adapting to our changing energy landscape requires 
thoughtful consideration by members of this committee, which is 
why I take this issue so seriously.
    As I said last week, Republicans have urged our majority 
colleagues to avoid resurrecting economically harmful, top-down 
regulatory policies that punish consumers with higher prices 
and fewer choices.
    Republicans support innovation, conservation, adaptation, 
and preparation. America can continue to lead the world in 
carbon emissions reductions if we stay true to the core 
principles that enabled our success.
    I believe that overregulating the power sector or imposing 
a carbon tax will hurt consumers--especially low-income and 
rural consumers--which will lead to economic stagnation.
    We eagerly await the opportunity to work together on these 
important policies to encourage innovation, conservation and 
preparation. There's so much we could do together in this space 
to help consumers and reduce emissions.

    Mr. Rush. The gentleman yields back.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    And now the opening statements have been concluded, and now 
we will move on to the questioning of the witnesses.
    And the Chair recognizes himself for 5 minutes for the 
purpose of questioning the witnesses.
    The committee has set its sight for reaching a 100 percent 
clean energy economy by the year 2050 and demonstrating that we 
are ready to move boldly to aggressively tackle issues linked 
to climate change.
    And my first question is to Ms. Palmer.
    Ms. Palmer, in your testimony you were highlighting that 
environmental equity and environmental justice considerations 
should be a central focus in both climate policy and 
transforming energy systems discussions.
    I am interested in how this corresponds with a renewable 
energy workforce transition.
    Ms. Palmer. Yes. Thank you, Chairman Rush.
    So I think an important opportunity that presents itself 
with policies that impose a price on emission allowances is it 
generates some revenue that can be used for job training or 
transition assistance to make opportunities available for 
people who are losing their jobs potentially in the fossil fuel 
sector to transition to jobs in other sectors, maybe--and in 
particular, in the clean energy sectors, to the extent that 
those geographies correspond.
    I know that sense of place is really important to people. 
But there are places, for example, in West Virginia, where you 
could exploit wind resources and create a clean--more of a 
clean energy economy as you move out of fossil fuels.
    And I think, in order to do those types of activities, 
though, you do need resources. And one of the opportunities 
created by putting a price on carbon is it does create revenues 
that would be available to fund such an effort.
    Mr. Rush. Uh-huh. I also appreciate the statement that you 
made in your written testimony where you stated that 
``disadvantaged communities are most vulnerable to the 
potential costs of policy and to the effects of a changing 
climate.'' I appreciate this sentiment.
    And I wanted to just ask you, none of the communities frown 
upon those sentiments?
    Ms. Palmer. Right. So I think as we look to address and 
mitigate that emissions that are contributing to climate 
change, it is also important to take actions to adapt to it. 
Because there is--the climate is already changing. And some 
adaptation is going to be necessary.
    And particularly folks who don't have access to a lot of 
resources, they may be prone to vulnerabilities associated with 
changes in agriculture or changes in floods being--in flood 
zones and also being proximate to areas where pollution has 
been an issue in the past.
    So, while policies to address emissions in the electricity 
sector are really important, it is also important at the same 
time that we focus on adaptation issues, and the most 
vulnerable are going to be the folks that we should target in 
those efforts.
    Mr. Rush. Thank you.
    Mr. Matheson, with these communities in mind, what 
additional incentives should the Government consider to support 
the transition of electric utilities to create a cleaner 
economy?
    Mr. Matheson. I think it is important, first of all, to 
look at the fact that, as I mentioned in my opening testimony, 
different communities have different circumstances. So a 
simplistic one-size-fits-all is not necessarily going to target 
these communities.
    And, as I mentioned, electric co-ops are 92 percent of the 
persistent poverty counties in America. So this is an issue for 
a lot of our membership in terms of making sure we make sound 
decisions that do not have significant economic harm to these 
vulnerable communities.
    One aspect of Federal policy that would be meaningful for 
electric co-ops is we are non-for-profit entities. So when it 
comes to the tax credits for renewables, for example, we offer 
having a contract with a third party to do it because we don't 
have a tax appetite ourselves. So one policy option that could 
be considered at the Federal level is making it a more elegant 
or simple way for nonprofit entities to monetize the value of 
tax credits that are part of Federal policy.
    Mr. Rush. How do we insure that the policies that we pursue 
will not result in higher rates for customers who live in 
disadvantaged areas?
    Mr. Matheson. Great question, without an easy answer. I 
think that you want to make sure you understand the cost 
implications, but I would also say also the reliability 
implications as well when you look at these policies. And I 
think for folks in the most vulnerable areas--like I say, we 
can't push these things on shareholders. It all goes to the 
bottom line to our ratepayers for any impact we face.
    So I think electric co-ops provide an interesting 
perspective on any of these policy considerations or how it 
affects someone's rates.
    Mr. Rush. The chairman's time is up.
    The Chair now recognizes Mr. Upton for 5 minutes.
    Mr. Upton. Well, again, thank you, Mr. Chairman.
    And I will indulge my colleagues a little bit. The Michigan 
example, in Michigan, we are making great progress in reducing 
emissions from the power sector. Electricity is affordable. In 
fact, we are ranked number 11 for electricity prices. We 
haven't had any issues with reliability other than a few storms 
every now and then.
    In fact, we export some of our electricity as well, and we 
have a pretty diverse fuel mix. In fact, as of July of this 
year, natural gas was 33 percent. Coal was 34 percent, and it 
is going down because our utilities have announced that they 
are going to be closing the remaining coal plants in the next 5 
to 7 years.
    Nuclear is about a little bit less than 25 percent, and 
renewables then are about somewhere between 6 and 8 percent. In 
fact, when you take down the coal percentage, that will 
probably be split between natural gas and renewables.
    And I guess the first question I have for Mr. Bear, who 
knows Michigan maybe better than anybody else, perhaps, 
likelihood, what has happened with emissions? Do you all track 
emissions within the region that you represent by State?
    Mr. Bear. We don't track it by State. We track it sort of 
overall as far as what is happening.
    Mr. Upton. Is Michigan about the representative sample of 
the other States within MISO?
    Mr. Bear. I think it is fair, yes. It is probably a 
representative State, although things are changing. We have 
moved from, you know, having all the States look fairly 
homogeneous to different policy choices being made, some moving 
a lot more towards renewables, some stepping into renewables 
lightly and some not stepping in at all. So now things are 
changing pretty significantly.
    Mr. Upton. Michigan has been a leader, actually, in terms 
of increase in its percentage of renewables from where we were 
15, 20 years ago and to where we are headed. Our major 
utilities have announced that they are going to be dramatically 
increasing that percentage over the next number of years on 
their own, which is a good thing.
    Mr. Bear. That is correct. Michigan, Minnesota, and Iowa.
    Mr. Upton. And what has that done to prices as it relates? 
Again, I mentioned Michigan was number 11. Where do you think 
Michigan is headed in the region in terms of competitiveness as 
it relates to prices for consumers?
    Mr. Bear. Very competitive. Michigan has done a very good 
job of keeping their prices low.
    Mr. Upton. Mr. Matheson, you mentioned in your opening 
statement about carbon capture. Of course, you were on the 
committee when we began to pursue that. I think many of us 
here, regardless, both sides of the aisle, think that this is 
an approach we could take. Where exactly is your side of things 
on carbon capture?
    Mr. Matheson. Well, certainly we think it is an important 
technology to pursue. You are right. This has been discussed in 
the public domain for quite a while. Not a lot of action has 
happened in terms of significant commitment and research. From 
our perspective of the electric co-ops, we have been active in 
pursuing it. We funded something called the Wyoming Integrated 
Test Center, which is a co-op facility in Wyoming where they 
are testing different technology for carbon capture.
    Another one of our members, Minnkota Power in North Dakota, 
has got a project called Project Tundra. They are moving ahead 
now. That is going be a carbon capture effort at their coal-
fired facility.
    So we are trying to act on this and demonstrate how it can 
work in the real world, but I would suggest that the technology 
is not as mature as it would like to be in terms of being 
readily economically available across the country.
    But I think it is an important tool for us to take a hard 
look at and pursue because I think having reliable base load 
power is an important part of maintaining grid reliability.
    Mr. Upton. I think we all would agree.
    With that, Mr. Chairman, I yield back.
    The birthday boy, as I understand it.
    Mr. Rush. The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you.
    I wanted to start with Mr. Izzo. In your testimony you 
highlighted the impressive progress that PSEG has made in 
reducing carbon emissions, and I appreciate that you also 
acknowledge that Federal climate change legislation is crucial 
to achieving decarbonization in all sectors of the economy. And 
we heard testimony at previous hearings about the need to 
electrify other sectors of the economy that are reliant on 
fossil fuels, including the transportation sector.
    So my question is, PSEG has installed hundreds of electric 
vehicles charging stations in New Jersey to date, with plans to 
install thousands more. What are some of the barriers to the 
build-out of the EV infrastructure?
    Mr. Matheson. So the primary barriers for the build-out are 
market barriers. There is a chicken-and-egg issue that folks 
don't want to develop the infrastructure absent penetration of 
electric vehicles, and folks don't want to buy electric 
vehicles absent the development of the infrastructure.
    So States that have successfully primed the market by 
having utilities build out the infrastructure as a way to 
eliminate the range phobia that limits the penetration of the 
electric vehicle itself.
    Mr. Pallone. We have been reading these news reports about, 
you know, cities across the country that proposed a large EV 
charging network, but then they run into roadblocks. Seattle in 
particular comes to mind. What policies can we implement at the 
Federal level to broaden adoption of EV charging technology?
    Mr. Izzo. Well, as is always the case, a little bit of 
encouragement of grant programs to States that do allow this to 
be part of a utilities rate base would encourage utility 
investment in that infrastructure.
    Mr. Pallone. All right. I wanted to just--I wanted to--is 
this working? This is not working? I will just talk louder.
    You wanted to--Mr. Dennis--and should the issue of market 
barriers to the deployment of renewable energy.
    Increasingly electricity customers are becoming more 
sophisticated with their electricity needs, and whether the 
goals are simply to save money or supply reliable power and 
demonstrate leadership and sustainability in the UC, customers 
are looking for more options. But multiple barriers again 
remain, such as dependence on different countries that may not 
be allowed to put solar powers on your roof.
    So, if I could ask Mr. Dennis, you spoke about this issue 
in your testimony. In your opinion, what are the highest 
priorities that Congress can take in a potential climate build 
to remove these market barriers?
    Mr. Dennis. We see a number of market barriers in the vein 
you talked about in terms of customers being able to better 
access renewable energy supplies or manage their own energy 
needs, and there are a number of steps you can take. Certainly 
laying the policy groundwork for removing those barriers in 
wholesale markets, but there is much more that needs to be done 
in terms of those wholesale market rules in terms of they take 
advantage of and recognize the technical and operational 
characteristics of those technologies.
    We also see our corporate purchasing customers really 
prefer operating in a regional wholesale market where they see 
clear price signals that can really guide their investment in 
energy technology.
    So certainly considering ways to continue to improve those 
constructs and continuing to expand them is something that 
would be of interest to our industry.
    Mr. Pallone. Let me ask you one more thing. Are there forms 
of the transactions in consumer-driven innovations that can't 
be undertaken, steps that have a vertically integrated market? 
And, if so, could you give us some examples?
    Mr. Dennis. We see a number of examples today, particular 
in the realm of distributed energy resources. So customers are 
adopting distributed energy resources at the Cox fall and as 
they want to manage their own energy use better and a number of 
companies are offering innovative services to those customers 
where they can maintain operation of that resource at the 
retail level, provide a service to those customers, and then 
also offer more services from that resource into the wholesale 
market.
    So offering services across retail and wholesale markets is 
a challenge. Many States, States and local utilities, put up 
both implicit and explicit barriers to doing that, and there is 
much that can be done at both the Federal and the State level 
to remove those barriers and allow these technologies to 
provide a broader range of services.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Rush. Thank you.
    We are having some technical difficulties. This hearing has 
global infrastructure. So we have some technical difficulties, 
and so bear with us.
    The Chair will now recognize Mr. Latta for 5 minutes for 
questions.
    Mr. Latta. Thank you, Mr. Chairman.
    And I will speak louder, and welcome to the Energy and 
Commerce Committee, where we also have the committee I am a 
ranking member on. The communications, we can't make the 
microphones work. So, welcome. Thanks to our witnesses for 
being here.
    Thanks, Mr. Chairman, for having the committee hearing 
today, and if I could welcome our former colleague. If I could, 
I would like to direct my questioning to you, because I think 
it is important because I have the largest number of electric 
co-ops in a congressional district in the State of Ohio. I am 
proud of that fact. They do a tremendous job. I am now with 
them all the time. I know when they are doing out there.
    They know more than I do, good or whether bad. The taxes 
they face today, that they are talking about that economic 
impact they might have but, you know, they are out there, 
dealing with things like security. They work, and they want to 
make sure that they are also reliable. So, they are trying to 
do the upgrades.
    So, you know, many of those consumers are on fixed incomes 
that live out there, you know, a lot of them mainly rural 
areas, and then you look at anything that is increasing energy 
costs have a significant impact on their daily lives.
    And a couple of things that if I could just ask quickly you 
can follow up on. One, would you define base load capacity--
what you are talking about? Because I think that is a term that 
people have got to understand. I have 60.000 manufacturing jobs 
in my district from steel. I have a central foundry that make 
engine blocks at General Motors.
    Mr. Matheson. Base load means that, absent some failure, it 
is available all the time. That is the simple definition. 
Others are intermittent.
    Mr. Latta. So I know that you just can't shut that on and 
off.
    So, and the other term I would really like you to get into 
is when you are talking about that undue economic impact out 
there. Could you go into that?
    Because, again, for my small, medium, and large companies 
out there--I think the mic is back on--but we want to make sure 
that small companies thrive out in our rural areas. But could 
you just talk a little bit about that undue economic impact?
    Mr. Matheson. Yes, and I offered partially on the previous 
question as well. Not only base load is helpful, but when you 
mention those manufacturing entities, they need reliable power. 
They can't--power bumps for certain manufacturing processes can 
be extremely costly.
    So, having a reliable grid is also--I am going to sound 
like a broken record: reliability, affordability, reliability, 
affordability. So I wanted to mention that as well, 
particularly for many in the manufacturing sector that means a 
lot.
    I think we want to be cautious as we look at, as all 
Federal legislation and policy, we always make decisions and 
then there are consequences that fall out from then that 
weren't thought through at the front end, and that just is a 
creature of the business, but I think we ought to be really 
careful here when we talk about energy policy because, again, 
this is for my members' perspective we have a very disbursed, 
sparsely populated area. So the revenue per mile is limited, 
and any additional costs we have disproportionately hits every 
one of our ratepayers.
    That is what I mean by those undue costs. It could be far 
more impactful for the rural areas than it is going to be for a 
more densely populated urban area in terms of cost impact 
because we just can't spread the cost over as many people and 
so we are really in the most vulnerable spot in that regard, 
and that is what I was trying to communicate to the community.
    Mr. Latta. Well, thank you.
    And many of the co-ops in my district have supported an 
all-of-the-above energy policy. I know that we really started 
talking about that back in 2008, especially on our side, that 
we want to make sure we have both things running parallel 
together. When we are talking about that, we always talk about 
reliability.
    Would you give your thoughts on this, and why it is 
important to foster choice in selecting energy sources and not 
picking winners and losers out there?
    Mr. Matheson. In my case I represent an association. We 
have over 900 cooperatives. They are in 48 States. There is a 
lot of diversity of circumstance. It is dangerous to paint 
rural America with a broad brush in a lot of ways, including 
their electricity profile, and so it is really important to 
meet the needs that are in a local area based on geographic 
considerations.
    You know, solar in Arizona and solar in Michigan and solar 
in Maine are three different things, and it is really important 
that we have policy that allows that flexibility for the whole 
portfolio of energy choices to do what makes the most sense for 
those communities.
    And since we are consumer owned and we are owned by the 
people in the community we serve, that drives all of our 
decisionmaking in the cooperative movement. So, that is why we 
think the all-of-the-above or having full complement of choices 
makes sense for my membership.
    Mr. Latta. That is really important because, again, I am in 
my district all the time when I am back home, and I know that 
we have got to keep that power on and, you know, we have issues 
like we did back in 2014 with the polar vortex that hit that we 
didn't have any blackouts, brownouts in the State of Ohio, and 
it was important because everybody was out there, doing what 
they had to do to keeps the lights on and keep everything 
running. So I appreciate you coming back, and it is good seeing 
you again.
    Mr. Chairman, I am going to yield back the balance of my 
time.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mr. Peters for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman. I also echo that it is 
nice to see Mr. Matheson. He was always our coach when I was a 
freshman about how to behave out here and not to take dumb 
votes, but I appreciate seeing you again, Jim.
    I want to ask a question for Ms. Palmer. In September 2008, 
Governor Brown of--then the Governor of California--signed SB-
100 in my home State which managed the State to achieve a 
hundred percent carbon neutrality by 2045, and we are advancing 
toward that goal as far as I understand.
    Why is that approach not the right approach, or is it the 
right approach at the Federal level?
    Ms. Palmer. So thank you, Congressman, for your question.
    So one of the features of SB-100 is, while there is 
specificity about the renewables goal in the interim years, 
there is a declared goal for 2045, but the mechanism by which 
you are going to get to that goal and the technologies that are 
going to count is sort of unfolding, and I think the types of 
bills that we are talking about here today are examples of 
things that could be used to reach that goal.
    For example, a clean energy standard would be kind of in 
the spirit of SB-100 because it is open to allowing variation 
technologies and getting the full fleet of options out there 
through a crediting mechanism. So there is a lot of 
similarities between policies that might emerge under that type 
of policy and the policies that we have been talking about 
here.
    Mr. Peters. I assume that a pricing strategy for carbon 
would be one of the tools you would use to reach that goal as 
well.
    Ms. Palmer. Yes. So one could directly price carbon, as I 
mentioned in my testimony, or use a crediting program that 
credits clean energy relative to some emission rate standard. 
And, depending upon how those policies are designed, they can 
be very similar in outcomes and levels of efficiency as work at 
Resources for the Future has shown.
    Mr. Peters. Right. We appreciate your work.
    I would ask the question to Mr. Izzo or Mr. Dennis about 
other base load clean technologies. We are creating energy 
resources using technologies like battery storage and smart 
grids. But what percentage of a carbon-free portfolio do you 
think we can create across the Nation with new carbon-free base 
load technologies, including hydro, smart modular reactors, and 
what would Congress be most useful--what would be the most 
useful thing for us to be doing in terms of affecting that?
    Mr. Izzo?
    Mr. Izzo. So we have pledged we believe we can get to a 
hundred percent carbon free by 2050 through some combination of 
public policy changes in technology developments. The 
technology developments that we would anticipate would be 
needed, you mentioned two of them. They would be improvement in 
battery storage technology and advanced nuclear fuel cycles.
    Mr. Peters. OK. Mr. Dennis.
    Mr. Dennis. Like others on this panel, we support a 
technology-neutral approach that allows all technologies to 
compete in the market, and so what percentages within the base 
load definition that Mr. Matheson gave you or in some other 
definition is really, it is how do all of these technologies 
work together. The technologies you mentioned--modular nuclear 
reactors, battery storage in particular--how do they work 
together to maintain moment-to-moment balance and reliability 
on the system? It would be a variety and a portfolio of 
technologies, all operating within that goal that this 
committee has of a net zero carbon emissions by 2050.
    Mr. Peters. So one of the carbon--one of the technology-
neutral strategies we have heard about to push these 
developments, to incentivize development, is carbon pricing. 
Other than either cap-and-trade or carbon fee, do you see 
something that the Federal Government should be doing to 
generate that innovation?
    Mr. Dennis?
    Mr. Dennis. I think I agree with the thrust of Ms. Palmer's 
testimony in the sense that there are a number of options that 
this committee should consider. It should really take a 
holistic approach. As I mentioned in my testimony, we support 
the policy objective of net zero carbon emissions by 2015 and 
carbon pricing and clean energy standards. Those are all 
potential options that should be studied. There is probably no 
one silver bullet here. They are all going to work in different 
ways, and so considering all of those options together. Take a 
look at what the States are doing as well. The States have 
pursued a number of different objectives, your State and 
others, that can all be looked at and considered by this 
committee.
    Mr. Peters. Since you are here, and I will push you a 
little bit more because we are the ones that are supposed to 
study it. I think this is the classroom here a little bit.
    Are there particular States you think are doing a better 
job than others?
    Mr. Dennis. That is a hard question to answer because we 
have a number of States we are working in, and I don't want to 
choose among our children that have done well in moving toward 
a hundred percent clean energy grid.
    But certainly, you know, some of the examples are obviously 
your State of California in setting the objectives and, as Ms. 
Palmer talked about, working through those policy objectives. 
We have recently seen Colorado move toward 100 percent clean 
energy as well in its legislation. So, there are a variety of 
approaches.
    Mr. Peters. My time has expired.
    Thank you, Mr. Chairman.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mrs. McMorris Rodgers for 5 
minutes.
    Mr. Rodgers. Thank you, Mr. Chairman.
    And I wanted to say thank you to the entire panel for being 
here today. I appreciate hearing your perspectives.
    Reducing emissions, carbon emissions, is a shared goal. 
However, I believe that we must be realistic, and we must be 
honest about the challenges that we face. We need a strategy 
that provides consumer choice, ensures affordability, and 
maintains grid reliability and capacity.
    Clearly, the United States is a large country. It is 
diverse; and coming from different regions, different States, 
you find that there are different strengths and needs. A top-
down Government-mandated approach is not going to be workable. 
For some States, nuclear is the best option. For others it is 
wind, solar, or natural gas. Others it is hydropower.
    I am excited about the technological innovation and the 
American ingenuity that enables us to develop a variety of new 
cutting-edge ways of clean energy production. I am proud that 
America is leading the world in reducing carbon emissions.
    Eastern Washington is a leader in clean energy solutions. 
Hydropower built the Pacific Northwest. It built our economy, 
and it continues to provide clean, renewable, reliable 
electricity. In fact, we are number one. We have the lowest 
electricity cost in the country. It accounts for 70 percent of 
the energy in Washington State; and as we all know, it is the 
largest source of renewable energy in the country. We could 
double hydropower in America without building a new dam simply 
by investing in technology.
    However, right now in America it takes 10 years to license 
a new hydropower project. You compare that to 18 months for a 
natural gas facility. We can and we should do better. 
Washington State is known as being a leader in wanting to bring 
down and reduce carbon emissions. Just in January, though, 
there was an article in The Seattle Times that was highlighting 
that carbon emissions are actually up.
    In Washington State over a decade ago, we wrote a plan into 
law to reduce carbon gas emissions to 1990 levels by 2020; but 
the latest tally of States emissions show that we are trending 
in the wrong direction to meet that target and that more 
emission goals are ahead of us. In fact, the legislature has 
continued to increase those carbon emission goals. The fact, 
though, is from 2012 to 2015 our carbon emissions spiked 6.1 
percent due in part to increasing fossil fuel-generated 
electricity.
    So, at a time when we have this shared goal, we should be 
embracing what makes sense in each region of the country, and 
for us it is hydropower. We shouldn't be putting more costs and 
more mandates on hydropower. We should be actually moving 
forward with licensing reform here at the Federal level, in 
Congress.
    And you know that I have worked on this and I encourage the 
majority in their goal to move legislation to--I urge you to 
take action to address the licensing of hydropower projects in 
this country. Without it, I am not sure there is a realistic 
path to success.
    So I wanted to ask Mr. Matheson--and I, too want to welcome 
you back to the committee and appreciate your service and your 
continued leadership. I want you to expand on the role of 
hydropower in terms of grid reliability, capacity. How does it 
compare to other forms of renewable electricity?
    Mr. Matheson. Well, you stated the case well, and it 
matters a lot. Pacific Northwest, of course, is where it is so 
important, but I have to got tell you: We have got over 600 
electric co-opers in the country to get hydro from Federal 
power marketing agencies in 34 States. So this issue translates 
across a lot of the country, maybe not quite to the proportion 
it is in the Pacific Northwest, but by members in that part of 
the country it is a significant part of their power supply. The 
low rates are an important part of how they provide affordable 
power, and it is extremely reliable.
    It is interesting. You mentioned the history, that it built 
Washington and it is such a significant part of the history of 
the northwest and yet here we are today, talking about moving 
to more of a carbon-constrained future. It is just another 
value adder for the hydro assets, quite candidly.
    And it seems to me that I would concur with your statement 
that any discussion about moving ahead for Federal policy to 
enact a more carbon-restrained future, that the consideration 
of how we can best enhance our hydroelectric generating 
capacity ought to be right at the top of the list, because it 
is there.
    Ms. Rodgers. Thank you. I appreciate you making that point 
because--hydropower, we have new technology, and it isn't just 
Washington State. It is all over the country, 34 States. and 
there is potential to double it.
    Thank you, Mr. Chairman.
    I yield back.
    Mr. Rush. The gentlelady yields back.
    The Chair now recognizes Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, for holding this 
hearing today.
    Jim, it is good to see you back here, and appreciate all 
the work that we were able to do together when you served on 
the committee here.
    We know climate change is real. It is affecting our 
communities today. It is going to get worse if we do nothing to 
reduce our greenhouse gas emissions. I believe we must get to a 
100 percent net zero emission economy by 2050, and we have to 
take aggressive action to do so. Since the power sector is 
responsible for almost one-third of the country's greenhouse 
gas emissions, finding ways to decarbonize a sector is going to 
be vital as we attack climate change.
    Ms. Palmer, we know that in order to get to net zero 
emissions there will be a large expansion of renewable energy 
resources such as solar and wind. We also know there are 
challenges to rapidly incorporating a large amount of 
intermittent renewables onto the grid. This is why I believe it 
will be important to deploy energy storage so that grid 
operators can better manage the fluctuating power supply of 
renewables.
    For this reason I have introduced H.R. 2096, the Energy 
Storage Tax Incentive and Deployment Act, which aims to expand 
the deployment of energy storage by extending a 30 percent tax 
credit to qualifying energy storage products.
    Ms. Palmer, as we add large amounts of intermittent energy, 
how critical is energy storage going to be to ensuring grid 
reliability and resiliency? And, if an incentive like my bill 
is successful in getting more energy storage deployed, would 
that significantly alter the modeling for the amount of 
renewables we could deploy as we move towards net zero by 2050?
    Ms. Palmer. Thank you, Congressman, for that question.
    Energy storage is indeed going to be crucial as we move 
forward with a renewable grid. I think energy storage could 
take a variety of forms, including grid scale batteries, but 
there also could be storage opportunities on the customer side 
of the meter associated with charging vehicles and perhaps 
preheating water, for example, as happens in some locations 
today but could happen more if we move to electrify our water 
heating stock out there.
    And, in addition, longer-term types of storage are going to 
be necessary as well. I have to confess I am not familiar with 
all the details of your bill, but I do think we need to attack 
storage from a sort of shorter-term perspective of carrying 
renewable energy through the day but also dealing with seasonal 
fluctuations in the supply of renewables, which is probably a 
bigger challenge, particularly as they become an increasing 
share. So storage is going to be really important in that realm 
as well.
    Mr. Doyle. Thank you.
    Mr. Izzo, New Jersey is a member of the Regional Greenhouse 
Gas Initiative, a regional cap-and-trade system, but as you 
testified, the State also created a clean energy credit for 
nuclear power. Our Governor in Pennsylvania has recently 
announced that we are going to join RGGI, and while our long-
term goal is to reach net zero carbon emissions in the short 
term, I don't want to see a situation where nuclear power 
plants are closing now and being replaced by fossil fuels. That 
would only lead to increased emissions and the loss of hundreds 
of good-paying jobs.
    What lessons about incentivizing and retaining clean energy 
sources have you learned from your experience as part of RGGI, 
and what do you believe are the best strategies for retaining 
our current nuclear power fleet so that we can more quickly 
meet our clean energy goals?
    Mr. Izzo. Thank you for the question, sir.
    So the biggest challenge between RGGI and electric power 
markets, Pennsylvania and New Jersey alike, is that the RGGI 
States do not coincide with the PGM power market States. So, 
therefore, the regional power market does not see the price 
signal that RGGI is intended to deliver. So, the RGGI costs 
don't get reflected in other generators that are not part of 
RGGI, and therefore nuclear does not benefit the way it should 
from being carbon free, thus the need currently for direct 
State action to rescue the nuclear plants. Otherwise, as you 
said, we would lose an important carbon-free source of 
electricity.
    If there were Federal action, then nuclear in Pennsylvania, 
New Jersey, Maryland, and every other State would see the 
benefits of being carbon free.
    Mr. Doyle. Mr. Anderson, first of all, I want to thank you 
for being here. I think it is important that we get labor's 
perspective in this hearing also, and we have talked a lot 
about how the grid will change as we decarbonize. We have also 
seen firsthand in Pennsylvania how devastating it is for a 
community when a nuclear manufacturing plant closes.
    What can we do at the Federal level to ensure that workers 
are at the table for these discussions, and how can climate 
legislation reflect the needs of workers in these energy-
intensive industries?
    Mr. Anderson. Thank you very much for that question, sir. 
This is a topic we take more seriously than almost any other on 
energy policy. We used to have considerable coal assets in 
Pennsylvania. Today we have none, zero, and the effects when 
those plants in Pennsylvania closed were the same as they were 
when they closed anywhere. They were devastating. You cannot 
overstate the impact that it has on workforces and communities.
    What we can do as a Nation is begin to design robust policy 
response to that, and it is not impossible. It is just a choice 
to do it. Other countries have undertaken this. A particularly 
good example is Germany that is powering billions of euros into 
transforming their coal sector, and at the microlevel they go 
all the way down to assigning individual case workers to 
workers to take what are their situation, what are their 
skills, how do we move them over here, and they have a very 
high success rate in doing that. Canada similarly has 
undertaken a national effort and a provincial effort in Alberta 
to design robust policy to do this.
    In all of those cases--in those cases and others, there are 
other countries--they have fully integrated labor into those 
discussions and to into designing those and asking people, What 
do you need? What are your communities going to need? If you 
don't ask, you don't know. I will humbly submit that labor is 
indispensable to designing that.
    Mr. Doyle. Thank you Mr. Chairman. Thank you.
    I yield back.
    Mr. Rush. The gentleman yields back.
    The Chair recognizes the gentleman from West Virginia, Mr. 
McKinley.
    Mr. McKinley. Thank you, Mr. Chairman.
    For the foreseeable future, the world is going to continue 
to have this voracious appetite for fossil fuels. We just have 
to understand that.
    And, according to the IER--I guess we have been screwed 
over.
    Mr. Rush. Waiting for the popcorn.
    Mr. McKinley. The quote that we wanted to put up there that 
they didn't want to show says that global carbonization, that 
we are going to increase by 16 percent by the year 2040 around 
the world, and China, India, other Asian countries, we have got 
a chart that they have chosen not to put up that shows the rest 
of the world is going to continue to build fossil fuel plants 
all over the world.
    The next chart that they didn't show shows that in China 
the CO<INF>2</INF> emissions are going to be up 290 percent in 
the last 10 years. India is up 235 percent in the same time the 
United States----
    Mr. Rush. Mr. McKinley, excuse me. We are having a--some 
more technical difficulties. Are you prepared----
    Mr. McKinley. We tried to work it out, and they said they 
would be fine when they did it. So obviously they weren't. They 
weren't straight up with us.
    Voice. I think they are trying to get it done.
    Mr. McKinley. The next is we see China out there funding 
carbon plants all across the world at 102 gigawatts. That is 
like the equivalent of maybe a hundred power plants or 150 
coal-fired power plants. China is still going to use coal.
    So, if we ignore this body of evidence--let's look for just 
a moment then, just ignoring this--let's look at the body of 
evidence about this commitment that we are trying to make to go 
a hundred percent renewables. It would halt fossil fuel 
research, and we would be abdicating our role of global 
leadership in developing technologies on carbon capture, but we 
would be pivoting to renewables.
    Look at Moniz's quote that we have--and, again, his quote 
earlier this year in February said that the idea that by 2050 
we are going to have 100 percent renewable system is not 
realistic. This is the Secretary of Energy saying this.
    So, let's deal with how we are going to concentrate on 
battery storage that everybody likes to talk about. Let's look 
at the complications with that, because the Wood Mackenzie 
report has already said, if we are going to rely on batteries, 
we have to have 900 gigawatts of power capacity, but around the 
whole world today there is only 5.5 gigawatts of power.
    We have got a real challenge. We have got to get away from 
the political jargon of saying we need the battery. How are we 
going to do it? And so, if we are going to battery storage, 
let's talk about the ecological impact of extracting lithium 
for batteries, 500,000 gallons of water to get 1 ton of 
lithium. What about the social cost of acquiring cobalt, the 
new blood diamond in Africa?
    So, and then we have to disregard the 2017 study that 
Moniz's group did, the Energy Futures Initiative, that 
declared, that found out that in California 1 in 4 days, 25 
percent of the time, there was not sufficient wind to have wind 
energy in California.
    So, despite all of this science and the evidence to the 
contrary, let's assume America can decarbonize. What would be 
the metrics of the progress? Think tanks have already concluded 
that, because of the continued international consumption that 
we have already talked about, the fossil fuels, the fact that 
they are going to continue to increase their use within 5 years 
of us totally decarbonizing, we will be back to neutral again, 
because they are going to continue to use it and we won't 
have--there will just simply be offset by what the other 
countries are doing.
    And we are still going to have--we are still going have all 
those threats: temperature, sea levels, wildfires, droughts, 
tornadoes. The MIT quote that we tried to put up said--MIT has 
come out and said that, regardless of anything the United 
States does to decrease its emissions, until China and India 
reduce their emissions, the results will be climate 
catastrophe.
    So, I want to get to this as quickly as I can. I am sorry 
that we lost the time in not being able to get our quotes up. 
So, if we totally do transform our economy--and for initially 
the air will be cleaner, but having abandoned our research on 
fossil fuels--America will be at the mercy of harmful emissions 
of other nations that are not following our lead.
    So it has come down to a choice. What are we going to do? 
Are we going to abandon what built America great, powerful, and 
switch over, or why don't we fix it? Why don't we do it? We 
stay in the game to do research and innovation. Do any rational 
scientists really expect that China and India are going to cut 
their coal fire emissions? No.
    So, if I could go back to you, Matheson, I begin. Am I 
wrong then?
    You cost me the time up there.
    Mr. Rush. Mr. McKinley, I know and I understand, and the 
Chair will give you an additional 1 minute. However, I really 
do want to apologize.
    Mr. McKinley. Thank you.
    Am I wrong? Are we going to have wildfires?
    Mr. Matheson. I do think it is important, your statement 
that we should continue with fossil fuel research, because, as 
I said in my opening statement, I believe that coal and natural 
gas are going to continue to be part of our portfolio, and we 
should be looking at carbon capture technologies that allow us 
to do that. I think it is going to be an important step.
    If the United States leads in that opportunity and develops 
that technology here, I think that that may have the impact 
globally over time where that technology--but we should be the 
leader on that technology.
    Mr. McKinley. We have got to have it. What about the USE IT 
Act? Would you support the USE IT Act?
    Mr. Matheson. Yes, yes, the--we do.
    Mr. McKinley. Mr. Anderson, how about you? Would you 
support the USE IT Act?
    Mr. Anderson. We already do, sir.
    Mr. McKinley. OK. Thank you.
    I yield back whatever time you gave me.
    Mr. Rush. Mr. McKinley, I want to reiterate most staff are 
working on this technical issue, and I do want to reiterate.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chair.
    We are having trouble again. I am just going to--we are cut 
out again. I will use my outside voice. I want to welcome our 
former colleague, Jim Matheson. Thanks for coming and 
testifying, and the rest of the panel as well.
    And thank you, Mr. Chairman, for holding the hearing today. 
The hearing is an important issue. Obviously, we all appreciate 
that climate change, the existential crisis of our time, and we 
have to take all measures to address that.
    Decarbonizing our economy is at the top of that list in 
trying to achieve zero emissions by 2050 if we can in order to 
avoid the most disastrous impact.
    You all have been emphasizing, we certainly appreciate it, 
that addressing the climate crisis will take a multilayered 
approach, and a component of that will certainly be the 
infrastructure that we are building, and in this committee, you 
probably know, we introduced an infrastructure package to 
address, among other things, the energy infrastructure needs. 
As we move towards decarbonizing energy sectors and where it is 
more renewable energy, we need to invest in our electric grid. 
Not only is that grid aging, but we need to modernize it for 
the 21st century.
    Now, I am going to come clean. I have a bill--we have been 
hawking our wares up here today--it is called the 21st Century 
Power Grid Act, which is designed to do just that. It would 
empower the Department of Energy to support projects that 
improve grid performance, security, resiliency through 
grantmaking and cooperative agreements. It is designed to kind 
of leverage investment and put attention on when it comes to 
building that smart grid.
    So, Mr. Dennis, can you explain, in your view, do you agree 
why our Nation must invest in modernizing electric grids to 
accommodate these renewable energy and innovative technologies?
    In other words, we are talking a lot about the innovation 
of energy, but talk a lot about the grid that receives those 
new kind of components of portfolio and how to make sure that 
we are maximizing that in a way that decarbonizes the 
environment.
    So, if you could, just speak to that and what reliable 
service to customers looks like.
    Mr. Dennis. Absolutely. It is, again you are going to hear 
from me a lot. It is arange of technologies working together. 
You mentioned the grid, and both the transmission and the 
distribution grid. There is a number of investments we can make 
to make those grids more flexible, to make them more efficient, 
to get more out of the infrastructure than we already have.
    And then we have got a real job do to build infrastructure 
in key places to access low-cost, renewable resources that 
aren't near the grid we have today. That takes a lot of 
planning and then obviously the will to get it done.
    But certainly all of those technologies working together is 
what is going to provide us a reliable and resilient grid, and 
we have to think about it both at the transmission level and at 
the distribution level as well.
    You know, obviously transmission is key to accessing 
renewables, but we also need a strong and flexible distribution 
grid to allow customers to take advantage of new technologies 
like energy storage and distributed energy technologies.
    Mr. Sarbanes. Thank you very much.
    Lucy with the football here.
    Mr. Izzo, I would like to get your perspective on grid 
resiliency. Particularly with the impacts of Hurricane Sandy, 
my district--like, you know, yours and others--has been 
impacted and continue to feel the effects of climate change, 
rising sea levels, et cetera.
    So could you talk about how PSEG has worked to build 
resiliency, and do you have any additional recommendations on 
how we can help empower sectors to build out that resiliency?
    Mr. Izzo. Yes. So, we have invested north of $3 billion 
over the past 12 years since Superstorm Sandy. And the range of 
activities, some are as simple as literally lifting equipment 
off the ground in areas that are now more subject to floods.
    In other cases, what we have done is we have changed the 
geometry, the electrical geometry, of the grid so that we can 
feed customers from multiple directions in the event of power 
being lost.
    Clearly, whenever one undertakes actions like that, it is a 
cost impact on customers. So, the number 1 thing Congress could 
do is assistance programs, particularly for lower-income 
populations as they experience these elevated costs due to the 
physical improvements to the grid.
    Mr. Sarbanes. Thank you very much.
    Mr. Rush. The Chair now recognizes Mr. Kinzinger for 5 
minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Thank you all for being here.
    I think the best way to address climate change is by 
reducing not only our Nation's carbon emissions but that of the 
rest of the world. The changes pose both short- and long-term 
challenges that I believe can be addressed in two major ways.
    First, we need diversity in our energy resources. Energy 
diversity is energy security. This is comparative to one's own 
personal investment strategies. When you are looking to invest, 
you don't put all of your savings in one stock and let it ride. 
You diversify your investments into various funds. Similarly, 
this Nation cannot afford to put all its eggs in one basket.
    Second, we need to support market-driven innovations to 
develop new clean energy technologies that will put the U.S. at 
the forefront of environmental technology. My district, the 
16th District in Illinois, is a great example of what it can 
look like. My district and really the whole State of Illinois 
is home to a broad array of energy sources.
    Nuclear generators provide the most abundant, clean, and 
stable source on the planet, and my district's home to four 
nuclear generating stations in addition to hundreds of wind 
turbines, solar powers, geothermal sources, and others. These 
diverse sources not only provide year-round, reliable clean 
energy but have produced high-paying jobs for my constituency.
    While some may say that the U.S. needs to be a leader on 
reducing emission and combating climate change, I would say we 
actually already are.
    Since 2005, global emissions have increased by 20 percent, 
while the growth rate of United States emissions has decreased 
by more than the next 12 emission-reducing countries combined. 
It is going take a major innovation and breakthroughs to not 
only reduce our emissions here at home but also convey this 
ability to others around the world.
    All Americans want to be good stewards of their 
environment, and this desire drives markets. Tesla doesn't sell 
cars because of the sound system or you want to put solar 
panels on their roof because they look good. It is just smart.
    So, if there is one thing I noticed in each of the witness' 
testimonies, it is that everyone either strongly supports 
nuclear energy or at least recognizes that it is not reasonably 
possible to achieve emissions reductions goals in the near term 
without it.
    So, Mr. Matheson, let me ask you. As you know, nuclear is 
an important source of base load emission power for many co-
ops. Would it be possible to continue making sustained 
emissions reductions if we don't maintain a strong nuclear 
fleet?
    Mr. Matheson. I think you can't do that, and I also think 
you have a reliability concern if you don't maintain that fleet 
as well.
    Mr. Kinzinger. Yes, I think you are right.
    Mr. Bear, your testimony shows that you are resource 
planning for upwards of 40 percent renewable energy. Can you 
talk about how much wind would you have to bring online that 
replaces the premature closure of a nuclear plant?
    Mr. Bear. We haven't looked at it that way because they are 
not equivalent.
    Mr. Kinzinger. But it does produce X amount of power, so in 
theory, if you bring a plant offline, you have to bring, if you 
are going to----
    Mr. Bear. Depending on where it is, maybe 1.5 to 2.
    Mr. Kinzinger. 1.5 to 2.
    Mr. Bear. Two megawatts for every one you retire.
    Mr. Kinzinger. OK. And as you may be aware, Vistra Energy 
is slated to close four coal plants in Illinois by the end of 
the year. This includes the Hennepin Power Plant, which is in 
my district, as well as plants in Coffeen, Havana, and Canton. 
It is my understanding your organization, the Midcontinent 
Independent System Operator, and PJM must approve these 
closures based on an analysis of whether they are needed for 
grid reliability.
    Is that accurate, and can you explain further your role in 
this process?
    Mr. Bear. So that is true. They submit a study to us, or a 
request for us to study the retirement. We take a look at what 
impact is from a liability standpoint on the grid and render 
them a decision. If it has reliability consequences, we ask 
them to wait until we can build a transmission line to solve 
the problem.
    Mr. Kinzinger. And is that review currently underway, and 
how would closures like these affect reliability?
    Mr. Bear. I can't answer your second question because we 
are studying it, and that review is underway.
    Mr. Kinzinger. Do you have a timeframe on that, by chance?
    Mr. Bear. Probably 12 months.
    Mr. Kinzinger. Not only am I concerned about reliability, I 
am concerned about two more things: job loss and stranded 
assets, or really, wasted assets. This closure means scores of 
my constituents without jobs. It also means we have a usable 
facility linked into the grid with no power being fed into it.
    So, Mr. Matheson, given the reliability concerns, job loss, 
and wasted asset factors, shouldn't there be some sort of 
arrangement to convert these facilities to solar storage or 
some type of facility before forcing them offline?
    Mr. Matheson. I think you have got to think about all 
potential possibilities to mitigate the impact of stranded 
assets, and the ones you--those items you suggested shouldn't 
be on the list.
    Mr. Kinzinger. And do you see any needs for policy changes 
on that front?
    Mr. Matheson. Look, I think that we haven't had Federal 
policy that is for stranded assets to this day. I am not sure 
there is a Federal role in that, but I do think the 
consideration of workforce impacts and community impacts on 
plant closures is something that we should all care about.
    Mr. Kinzinger. Excellent. I will yield back, Mr. Chairman. 
Thank you.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. I thank the chairman, and I thank the 
witnesses this morning. I appreciate your testimony.
    I am sure you all watched in horror and dread the 
California wildfire situation. The challenge is how do we 
balance reliability with safety, given an aging infrastructure.
    Mr. Izzo, you have had to confront the challenges 
associated with extreme weather events. What lessons can we 
learn as we expand electrification while also adapting to 
climate change?
    Mr. Izzo. Yes. So there is an element of adaptation that is 
important. We are all paying the price for underinvesting in an 
aging infrastructure. PSEG, for example, has transmission 
towers that are approaching a hundred years old. We have gas 
pipes that are in excess of 100 years old.
    These are expensive improvements, but they must be made. We 
seek to balance them with high investments in energy efficiency 
and direct those investments in energy efficiency at those 
populations that are most vulnerable to the increase in builds 
associated with the more resilient infrastructure that we seek 
to build.
    Mr. McNerney. Do you see there is a role for the Federal 
Government in assisting in this transition?
    Mr. Izzo. As I mentioned earlier, it would be in a LIFT Act 
or in the form of a LIHEAP type of program.
    Mr. McNerney. Right. I couldn't agree more.
    Mr. Dennis, you noted the importance of developing new 
tools to assist utilities in containing isolated outages within 
the grid, as well as keeping critical infrastructure 
functioning while the rest of the grid can go down.
    Can you expand on some of the new planning tools and 
operational changes you would like to see?
    Mr. Dennis. Certainly. I think we need to be planning for a 
more distributed grid certainly that can isolate these kinds of 
unique challenges. We also need tools and training to help 
market operators and system operators understand how new 
technologies, a more distributed system, a system that is more 
categorized by variable renewable energy, is operated and how 
it can be operated most efficiently and effectively.
    Mr. McNerney. Thank you.
    Ms. Palmer, you noted that a long-term need to consider 
wholesale electricity markets and the bulk electric system will 
be designed, planned, and operated in a future reliant on low- 
and zero-carbon energy technologies. Can you expand on the 
necessary modeling practices and market rules that must be 
developed in order to capture the value of advanced energy and 
grid services?
    Ms. Palmer. Yes. So I think there are a number of options 
out there that various groups are exploring with respect to 
wholesale market design reforms, and I think that this is going 
to be a subject of some ongoing discussion, but basically, when 
you are in a situation where a lot of generators have zero 
marginal cost, that may limit the number of hours in which 
there are opportunities to earn revenues, and those hours would 
occur when demand is really high and supply is scarce, and that 
would create scarcity pricing that would be a potential source 
of revenue. And the questions remain about whether those 
scarcity events are going to overlap with the availability of 
renewables and investment occurring. So, some more exploration 
of those opportunities is important.
    Alternatively, people think greater reliance--another group 
of people think greater reliance on sort of a centralized 
planning procurement approach would provide more assurance, and 
that approach could overlap potentially with approaches like a 
technology-neutral clean energy standard that would create 
important value for those resources and lead to more 
investment. So I think it is an ongoing discussion and 
something people are paying attention to and will be advancing.
    Mr. McNerney. So, it sounds like you think the Federal 
Government's role could be some sort of renewable energy 
standard and research money.
    Ms. Palmer. Yes, definitely, yes.
    Mr. McNerney. Thank you.
    Mr. Izzo, again, according to NREL, today's commercially 
renewable technologies are more than adequate to provide 80 
percent of electricity generation in the United States by 2050.
    Can you speak to the important role that the Federal 
investment in climate-related research will play in helping 
utilities decarbonize?
    Mr. Izzo. Yes. So research and development will be an 
instrumental part of any attempt to decarbonize our future. 
Material science research in particular to help improve the 
efficiency of solar conversion, material science research to 
help improve the size of turban blades that can then capture 
greater degrees of wind, and higher-capacity factors would all 
be useful in future decarbonization, and, of course, advanced 
fuel cycles in nuclear.
    Mr. McNerney. Thanks. I spent a career developing wind 
energy technology. I am pretty excited about offshore 
development. What about the challenges that a project of that 
magnitude gives in terms of the Federal Government's role in 
helping?
    Mr. Izzo. So, as you know, the challenges on offshore wind 
are both technical as well as public policy. Something as 
simple as the requirements to meet the Jones Act and the 
limitations that puts on vessels that can be used to transport 
these very large structures is going to increase the cost of 
offshore wind in the Nation.
    The depth of our waters is different from some of the 
regions around the world where this has been done successfully. 
So, there will be some technology modifications that will need 
to be utilized as well.
    Mr. McNerney. We will have to have floaters in California. 
It's too deep out there.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thanks to our panel of witnesses here today testifying.
    You know, many of my colleagues on this committee have 
repeatedly and rightfully expressed concerns about top-down 
Federal proposals such as the likes of the Green New Deal. Now 
it is important to discuss how we can achieve emission 
reductions, and that is a big debate, but I worry that these 
types of approaches will cause electric rates to rise 
astronomically, while our domestic economy stagnates in the 
process, to say the very least.
    Instead of a one-size-fits-all approach to these issues, we 
need to ensure our laws and regulations foster competitive 
markets that allow our innovators to innovate and to compete.
    So, Mr. Bear, what role has MISO played and what role can 
MISO play in the future in ensuring well-functioning markets, 
competition, and the most cost-effective option for consumers?
    Mr. Bear. Well, what we try to do is conduct a series of 
studies to understand as the portfolio evolves and changes and 
we bring more intermittent resources on the portfolio, what do 
we need to make that portfolio reliable? What attributes need 
to be there? Is it flexibility, is it frequency response, you 
know, those kinds of things, and then understanding what those 
attributes are, and as Ms. Palmer noted, pricing them 
appropriately using different regimes so that they can be 
compensated appropriately and they are there when we need them.
    Mr. Johnson. So can you comment on how a proposal like the 
Green New Deal might inhibit these possibilities?
    Mr. Bear. I can't comment on that. We haven't studied how 
that would inhibit what is going forward and what we are doing.
    Mr. Johnson. OK. All right.
    Mr. Matheson, electric cooperatives cover some of the most 
sparsely populated and costly-to-serve areas of our country. 
Many parts of eastern and southeastern Ohio are good examples 
of where rural, hilly terrain can present some very unique 
challenges for co-ops to deliver reliable electricity.
    But they do, and in many ways these challenges are similar 
to those inhibiting the rollout of successful, reliable, rural 
broadband deployment as well. The economies are very, very 
similar.
    Mr. Matheson. Right.
    Mr. Johnson. Can you speak to some of the challenges co-ops 
have faced and have overcome in order to provide reliable cost-
effective electricity to rural America?
    Mr. Matheson. Sure. And I know you visited co-ops in your 
district. You know them well.
    Look, I think that you laid the predicament really well. At 
one level it is pretty simple. You have got these sparsely 
populated areas, so the economics are very challenging just on 
the revenue per mile. That was the case in the 1930s.
    That is still the case today in terms of electrification, 
and now it is the case in terms of broadband, as you suggested, 
as well.
    What do we do? What I think is interesting about the 
cooperative movement is these are smaller utilities. Sometimes 
you may think they are little slow to the action. Actually they 
are really innovative, and the embracing of technology like 
automatic meter infrastructure, the penetration of that across 
all co-ops in this country is far higher than the utility 
sector in general, which gives you greater telecommunication 
capability to monitor how electric use is taking place at the 
source.
    And so I am impressed with how we have tried to within the 
co-op family embrace this innovation in a way to make it work, 
but every decision we make, as I said in my opening comment, we 
have no shareholders. It all goes to the consumer, the impact, 
for good or bad. It all goes to the consumers.
    We are very careful about making good decisions, but that 
doesn't mean we don't embrace innovation, and that is how we 
try to take on that challenge in economic circumstance.
    Mr. Johnson. I think you make a very valid point. Those co-
ops are very, very innovative. There is a lot of innovation in 
rural America. You know, I am often reminded, in the late 
1800s, early 1900s, Dayton, Ohio, was a rural area. Two bicycle 
tinkerers with no college education figured out how to master 
the power of flight, and they did it out in the middle of a 
field. It is unbelievable, and we are missing a lot of that.
    And so what one final question. Why do you think co-ops 
have been able to overcome these challenges? Is it their 
ability to share experience amongst cooperatives, the 
obligation to serve all their customers? Why have they been so 
successful, do you think?
    Mr. Matheson. I think those are two important factors, but 
I will give you the most important, I think, is that we are 
consumer owned, and so--and the consumers are the owners of the 
co-op.
    So the consumers are driving the decisions, and they live 
with those decisions, and that consumer, bottom-up approach has 
created a very localized approach across the co-op network in 
this country in terms of how we make these decisions. I think 
that has been a real success factor for us.
    Mr. Johnson. A lot can happen when you have a need-to 
motivation versus a want-to motivation.
    Mr. Matheson. Right.
    Mr. Johnson. I thank you.
    And I yield back.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mr. Tonko, my friend from New 
York, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chairman.
    And thank you to our panel of witnesses, including my 
former colleague, Congressman Matheson. Good to see you all, 
and thank you for your input.
    Mr. Izzo, many utilities are making commitments to 80 
percent or more emissions reductions, but they all caution that 
achieving that last 20 percent will be difficulty and will 
require technology developments and breakthroughs. Earlier you 
shared the carbon-pricing riddle with this subcommittee, and 
very cleverly stated.
    How important is setting a clear and rising price on carbon 
today in order to achieve commercialization of new innovative 
technologies, some of which might be appearing 20 to 30 years 
into the future?
    Mr. Izzo. I think--thank you for the question.
    I think it is vitally important. Most of these investments, 
whether it is offshore wind, battery storage, or solar farms, 
are multi-decade, capital-intensive investments, and one 
pretends to understand the economics for literally 20 to 40 
years out into the future.
    And when you do that kind of a discounted cash flow 
analysis, having some predictable price on carbon will just 
give tremendous clarity and, therefore, motivation for people 
to make those investments. And, where there are investments, 
creativity and entrepreneurship will follow.
    Mr. Tonko. Thank you.
    And, Ms. Palmer, same type of question. What do you think 
the role of carbon pricing, a sound carbon price, plays in 
terms of spurring innovation and investment the technologies 
will require?
    Ms. Palmer. I think it is extremely important, Congressman. 
The prior examples that we have of pricing include the Title IV 
program to price SO<INF>2</INF> emissions in this economy, and 
I think we see several examples there of innovative approaches 
that were developed when power generators were faced with a 
price associated with emitting SO<INF>2</INF>, and they found 
creative ways to reduce those emissions.
    So, I think similarly here, when we provide that incentive, 
there will be all aspects of the sector will be looking for 
ways to reduce. So it is really important.
    Mr. Tonko. I would imagine just engaging in the economywide 
outcome with carbon pricing----
    Ms. Palmer. Yes. That is--yes, that is----
    Mr. Tonko [continuing]. Takes some of the--provides the 
flexibility so that we don't have to really project which 
sector is going to produce the results we require, I would 
think.
    Ms. Palmer. Exactly. And, you know, the innovations that 
are happening related to electric vehicles are spilling over 
into the power sector, and the climate challenges touches on 
all of our uses of energy. So I think it is important to try to 
get an economywide price to see those.
    Mr. Tonko. Thank you.
    Mr. Bear, MISO includes some renewable-rich geographies. 
Many of them are also far from major load centers. My 
understanding is, within MISO, several transmission projects 
have been planned and completed to integrate more renewable 
resources.
    Would ambitious State or Federal clean energy targets 
require additional interregional and regional transmission 
development, and if so, to what degree?
    Ms. Palmer. Sure. And thanks for your question.
    So to the first part of your question, we did put a $3 
billion portfolio in place. It has been incredibly successful, 
about a three-to-one benefit-to-cost ratio. We were able to 
lower prices for consumers, and it is almost complete at this 
point.
    We do need another portfolio that is regional to move 
forward and balance out what we have got. As we sort of 
decentralize the resources that are on the grid, we are going 
to have to change the way the grid is configured and how it 
works and make sure that we can move all of the attributes 
where we can move them to keep reliability high.
    Mr. Tonko. And what sort of timespan would you imagine will 
be required in order to meet the goals?
    Mr. Bear. It will probably take 8 to 10 years to get 
something like that done.
    Mr. Tonko. OK. And, Mr. Izzo, again, to the infrastructure 
issue. And I heard you speak to it with my--with earlier 
questions from my colleagues.
    But the new grid infrastructure that is needed in order to 
meet the utilities goals to reduce emissions, what order of 
investment are you anticipating, and again, what sort of 
timespan?
    Mr. Izzo. And, again, that will vary by region in the 
country. In some of the more urban areas, it can be as 
expensive as in some of the rural areas, not because of the 
distance between the customers but because of the 
undergrounding of the resource.
    And the investments that we are making are more from an 
adaptation point of view as opposed to enabling the 
introduction of renewables, and the comment I made earlier is 
that we have spent over $3 billion since Superstorm Sandy, and 
we anticipate that could be an additional two in years to come.
    Mr. Tonko. Thank you very much.
    With that, Mr. Chair, I will yield back.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mr. Bucshon for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman. And thank you all, 
witnesses. Sorry, I had another hearing that was important--as 
important as this, but I looked through your testimony.
    Carbon capture utilization and storage, in my view, is 
essential for the energy sector to provide customers with 
affordable and reliable electricity. However, as a developing 
technology, increased research and development is continually 
going to be essential, which is why I was pleased to see the 
Department of Energy select Prairie State Generating Company 
for a $15 million project supporting the design of a carbon 
capture system.
    While located in Illinois, it provides electricity to 
Hoosiers across my district, through the Wabash Valley Power 
Alliance and the Indiana Municipal Power Agency.
    Congressman, can you maybe talk about why you think that--
how investment in carbon capture can help ensure both grid 
reliability and affordability?
    Mr. Matheson. Well, it maintains a real reliable source, if 
you will. These base load facilities are an important part of 
our grid functions today. I get that the grid is changing, but 
I think that--and I think I heard in testimony from other 
witnesses, as you--as you go higher and higher in percentage of 
intermittent resources, it creates greater challenges to the 
grid.
    And I think having a base load supply is important. I 
think, if we are going to move to a carbon constrained world, 
then we have got to figure out a way to do carbon capture so 
that coal and natural gas can be an important part of our 
resource mix.
    Mr. Buschon. Right. I mean, from my perspective, 
practically, to try to get to a carbon-neutral environment, 
that has to be part of the mix. That is why I support ongoing 
research and development, not only in renewables and across the 
energy sector, but I think sometimes right now, at least, we 
are a little shortsighted, maybe, in trying to say that we 
don't need to continue to innovate in the fossil fuel space, 
for example, which I support innovating and developing 
technology across all of the inputs, potentially in the future 
to a carbon-neutral environment. I wanted to get that there.
    I have every coal mine in the State of Indiana, by the way, 
just so people know where my district is. And I am from the 
Midwest. My dad was a coal miner. But I do understand the 
challenges to all of these industries. But let's not be 
shortsighted and not continue to innovate.
    Mr. Bear, I appreciate your work to ensure that we have a 
reliable grid 8,760 hours of the year. This is incredibly 
important, especially require Hoosiers and other Americans in 
the Midwest who have experienced the intensity of a polar 
vortex. However, I am concerned that the wholesale power market 
does not adequately price the resiliency attributes of base 
load power. Would you agree? And if so, how do you suggest 
addressing that issue? Does that make sense?
    Mr. Bear. It makes perfect sense.
    Mr. Bucshon. We don't really address the value of having 
that consistency and reliability that base load provides.
    Mr. Bear. That is a fair comment. One of things that we are 
trying to do is understand how much of that we need and where 
we need it and then how to price it based on value.
    As was noted by several panelists, marginal cost pricing, 
which we have used for a long time now, is not going to get us 
where we need to go.
    Mr. Bucshon. Yes. I appreciate that. Because that is the 
other thing that I--I am concerned about, about reliability and 
stability of the electrical grid. We have seen in the European 
experience where they have had some issues there and the cost.
    I am in rural America. I have a lot of rural areas that 
have--we will just say low-income individuals or--and also 
seniors on fixed incomes across all of our districts and across 
the United States. And so I think, if we get too far ahead of 
ourselves here, the cost can inhibit the ability of these 
citizens, particularly the low-income citizens and seniors on 
fixed incomes, to be able to afford their electricity and their 
power.
    I am going to ask Ms. Palmer this last question, because I 
heard a comment that she just made about electric cars. And 
this is an interesting subject for me, because one of the 
things I think we fail to realize sometimes is what the 
environmental impact of the entire lifecycle of a technology 
is.
    And so in my district, for example, if you have an electric 
car--which I support, it doesn't put out any emissions--but 
when you plug it into the wall, about 80 percent of the 
electricity generated comes from a coal-fired power plant.
    So can you explain to why you think--you know, I realize 
you decrease emissions, but I just am not convinced that that 
particularly will change much, the overall lifecycle of carbon 
emissions with the battery--the development of the batteries 
and what it costs to do that, when you plug it in, how the 
power is generated. Just quickly, because I am out of time.
    Ms. Palmer. Yes, I think it is important to move towards a 
largely substantially decarbonized grid, either through 
adoption of clean technologies, more carbon capture and 
storage. And in that situation, the power that you are using to 
charge the battery would be clean. So I think the two kind of 
have to happen in tandem.
    Mr. Bucshon. OK. I guess--I am out of time, but I guess my 
point is that electrical cars--going to electric cars alone is 
not going to solve our problem.
    I yield back.
    Ms. Palmer. No, but they are more efficient, yes.
    Mr. Rush. The Chair now recognizes Mr. Veasey for 5 
minutes.
    Mr. Veasey. Thank you, Chairman Rush, for holding this 
hearing, and I would like to thank the witnesses also for being 
here. I think this has been a really fascinating discussion, as 
we talk about ways we can reduce emissions in the power sector.
    As you know, the power sector is responsible for about 20 
percent of our Nation's energy use and greenhouse gas 
emissions. And if we are going to make meaningful progress on 
tackling climate change, we must, of course, work to reduce 
these emissions through cleaner energy, and we should also look 
at barriers to clean energy deployment.
    As part of the deregulation in my home State of Texas, many 
consumers, since the early 2000s, have had the ability to 
decide who they buy electricity from. Allowing consumer choice 
has not only created some of the lowest retail prices in the 
Nation of 11.5 cents, compared to the Nation average of about 
12.5 percent, it has also allowed for consumers to seek out 
cleaner sources of energy.
    Of course, this change, along with other market 
improvements in Texas, has allowed renewable energy to also 
rapidly grow and has seen the State decarbonize faster than any 
other State in the Union.
    According to recently released data from the U.S. Energy 
Information Administration, Texas is the leader in electric 
sector decarbonization. In 2013, we closed about a third of our 
coal plants in the State of Texas. At the same time, Texas led 
the Nation in adding renewable power capacity. Specifically, 
Texas leads the Nation in wind generation capacity with nearly 
25 gigawatts, which is more than a quarter of the Nation's 
total.
    Texas still added more wind and renewable generation than 
any other State last year. In fact, Texas has enough wind 
capacity to rank number five globally if we were a country. And 
some people do think that we are a country. And the other 
thing, too, that I think is always fascinating, that I like to 
brag about up here, is that if we compare the energy mix of the 
grid in Texas to that of the European Union, that Texas 
actually produces more renewable energy on our grid than they 
do in the EU. So, furthermore, the State indicates another 21 
gigawatts of solar projects and 30 gigawatts of wind projects 
are in the pipeline.
    And so my question today is for Ms. Palmer of Resources for 
the Future. Can you speak to the benefits of a competitive 
market like ERCOT provides, in terms of reducing barriers for 
renewable energies to compete on the grid?
    Ms. Palmer. Certainly, Congressman.
    So I think you identified some of them in your opening 
remarks, about the ability for people to select their energy 
supplier not solely based on price but also based on these 
other attributes.
    And I believe a lot of the clean energy development that is 
happening, as Mr. Dennis referred to, is actually coming from 
those sorts of opportunities. Particularly, large companies are 
interested in doing this, and their ability to do so in a sort 
of integrated way where they are pointing to the actual sources 
in their local area, is enhanced and actually made possible by 
having more competitive markets.
    So I think it is not going to answer the problems that we 
have, but it is certainly going to provide another avenue by 
which clean energy development can be encouraged.
    Mr. Veasey. Thank you very much.
    I would like to now turn to Jeff Dennis of Advanced Energy 
Economy.
    In your testimony, you mentioned that Federal leadership in 
wholesale electricity markets provides a near- and long-term 
opportunity to lower consumer costs, expand consumer access to 
advanced energy, and reduce emissions.
    Specifically, what role does Congress have to make sure 
consumers in any State have a choice and access to cleaner 
sources of energy?
    Mr. Dennis. Well, Congress' role certainly in overseeing 
the regulation of the wholesale markets is critically 
important, to make sure that all resources that are technically 
capable of providing services are allowed to do so and that 
those market barriers are reduced.
    I think Congress certainly has a role in looking at how 
competition in those markets gives consumers across the board 
the opportunity to make the choices we just talked about, to 
choose advanced energy, particularly now that advanced energy 
is not only a great choice for folks who have sustainability 
goals and other things, but is also the least-cost resource on 
the grid.
    Mr. Veasey. Thank you very much. Appreciate the panel for 
being here today.
    Mr. Chairman, I yield back.
    Mr. Rush. The Chair now recognizes Mr. Flores for 5 
minutes.
    Mr. Flores. Thank you, Mr. Chair.
    I want to echo the comments that Mr. Veasey had regarding 
Texas. I do consider it its own country.
    Anyway, we are the country--as you heard before, we are the 
country's largest producer and consumer of electricity, and our 
State has a robust market that is open to both buyers and 
sellers of electrons. And, since the establishment of a 
competitive electricity market in 2002, Texas now leads the 
U.S. in wind production, and Texas also leads in adding 
renewable capacity and clean-burning natural gas.
    Today, residential consumers in Texas pay some of the 
lowest electricity costs in the country at 11.8 cents per 
kilowatt hour. On the other hand, California residential 
consumers, by comparison, pay nearly twice as much, at almost 
20 cents per hour.
    At this time I would like to ask unanimous consent to 
insert for the record a Dallas Morning News editorial entitled 
``California's energy nightmare shows us why Texas must trust 
the free market.''
    Mr. Rush. With no objection, so ordered.
    Mr. Flores. This editorial clearly lays out the absolute 
failure of a government-sanctioned monopoly. California does 
mandates through its monopoly, Texas does markets. And where is 
the consumer being better served?
    I am sympathetic to those that are currently impacted by 
the weather changes in California, but it should be noted that 
the root of the problem results from a monopoly utilities 
mismanagement of their infrastructure and the adjacent 
vegetation, under the watch of State regulators.
    Now we see the consequences that our friends in California 
are facing today: PG&E's announcement late yesterday that up to 
1.8 million will face a power shutoff because the bankrupt 
utility cannot manage the fire danger posed by its outdated 
equipment and infrastructure.
    The carbon emissions from the California fires last year 
were equal to the emissions from the California power sector 
last year. So, as the committee's majority continues to 
contemplate a chaotic decarbonization of our economy, I hope 
that they seriously consider flexible market solutions over 
mandates so that the mistakes of the past are not repeated.
    Texas is a great example of the superiority of market-based 
solutions to increase the use of renewable power sources. This 
committee would be well served to consider expansion of market-
based solutions versus ineffective and costly mandates.
    For Mr. Dennis, there are some places in the country with 
significant market barriers limiting deployment of more 
efficient generation. I am the largest residential solar power 
producer in Brazos County, Texas, and I have also implemented 
demand-side restrictions to peal another 42 percent off my 
usage of grid power. But some States still ban homeowners from 
putting solar on their roof. Some other areas also ban 
manufacturers and large businesses from generating their own 
renewable electricity, or access to new technologies is limited 
because many consumers in America are limited to a monopoly to 
purchase their electricity.
    So, Mr. Dennis, should we accept the status quo where 
certain consumers of electricity are worse off simply because 
of their geographic location?
    Mr. Dennis. We certainly shouldn't accept a status quo of 
consumers not being able to access the energy that they desire, 
certainly. And we see instances where innovative new services 
are more difficult to provide or are barred by State policies 
or utility policies that limit their access to the grid.
    So certainly there are a range of policy approaches that 
both Congress and the States can take to address those issues. 
But certainly we have seen and the example of--the great 
example of Texas that you mentioned, in terms of the ability of 
consumers to choose more advanced energy, is a powerful one.
    And there are other tools as well. Certainly, improving 
utility planning and ensuring that the low-cost benefits of 
advanced energy are recognized.
    Mr. Flores. When we look at the fact that electrons flow 
freely across State borders--they are not identified as State 1 
electrons or State 2 electrons--is interstate commerce 
inhibited by prohibitions of new entrants, new products and 
services, and new forms of transactions from one State to 
another?
    Mr. Dennis. I think they can be, certainly. In instances 
where new technologies are able to provide a range of services 
across that sort of wholesale and retail divide that we have 
traditionally thought about the electricity grid, there can 
certainly be barriers that inhibit those kinds of services.
    Obviously, all of these things depend on the particular 
physics of a local area.
    Mr. Flores. Sure.
    Mr. Dennis. But in general that could happen.
    Mr. Flores. Should this committee consider legislation to 
improve access to more innovative technologies and lower-cost 
advanced energy across all regions of the country?
    Mr. Dennis. I think this committee should consider a range 
of options to continue to empower consumers to choose clean and 
advanced energy.
    As I mentioned in my testimony, 71 percent of the Fortune 
100 and 43 percent of the Fortune 500 companies have clean, 
sustainable energy goals and want to purchase more advanced 
energy.
    There are a range of options that States and utilities can 
give those entities, as well as residential consumers and 
others. And those should all be considered as we think about 
decarbonizing the electricity grid.
    Mr. Flores. And I appreciate your answers today. And I have 
a couple of other questions to submit for the record. I will 
ask you to follow up separately. Thank you.
    Mr. Dennis. Thank you, Congressman.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mr. Schrader for 5 minutes.
    Mr. Schrader. Thank you very much, Mr. Chairman.
    Ms. Palmer, we have got a lot of talking points these days 
about the best way to get to zero carbon emissions at the end 
of the day. And one side of the aisle is always about 
innovation, innovation, innovation, the other is about 
regulatory approaches, carbon pricing, et cetera.
    Are they mutually exclusive, or could we work together to 
come up with something, with a little bit of the regulatory 
framework that enhances, hopefully, getting there and at the 
same time making sure that the innovation, so that the 
different industries can actually all contribute to reducing 
our carbon emissions?
    Ms. Palmer. So, Congressman, I think it is important to do 
both, actually. I think putting a flexible approach in, such as 
a price on carbon, will provide incentives to folks to 
innovate, both folks who are in the energy supply business and 
also folks who produce supplies for them and other--energy 
storage people.
    But, as has been mentioned previously at this hearing, we 
are pretty certain that we can get to the 80 percent 
decarbonized goal now. But the technologies that we really need 
to get to the 100 percent goal, which is an important goal, are 
probably largely yet to be created. And so we need to put 
resources into doing that. And so I think it is important to do 
both.
    Mr. Schrader. So question for--maybe a followup question to 
you and maybe Mr. Izzo, too, frankly.
    You know, the idea of just pricing carbon would seem to 
tacitly admit that we are going to still have a lot of carbon 
production as a result of different energy sources in this 
country.
    What about putting a lot of money into research and 
innovation, to go far an all-of-the-above, carbon capture, 
carbon reduction, renewable approach and allow the market to do 
its innovation? In other words, instead of putting money on one 
side of the equation, we put it on the other side of the 
equation too, and then set a zero emission standard for some 
point in the future that is, you know, reasonable, given your 
comments.
    Ms. Palmer. Right. So I think that you can kind of do all 
of those things together. So one of the virtues of the price on 
carbon is it does encourage reducing carbon emissions, and 
moving towards the goals that the committee is talking about 
would ideally probably happen through a price that goes up over 
time. And so that is going to increasingly discourage the 
carbon emissions, but it also creates in the interim a source 
of revenue, some of which could be devoted to doing the types 
of research that will be required to get to our goals.
    Mr. Schrader. Mr. Izzo, comment?
    Mr. Izzo. Yes. I would invest on both sides of the 
equation. I was benefited by being up at MIT yesterday where 
there is some exciting work going on a technology they call 
SPARC. There is $120 million worth of private capital being 
placed into fusion technology because of belief that Congress 
will do something about carbon. But that research was 
predicated on some DOE funding for basic material science in 
magnetic technology.
    So I think it is both the allure of the market and the 
investment potential associated with being the least-cost 
supplier of carbon-free energy, combined with the R&D in some 
fundamental science areas.
    Mr. Schrader. Inherent in all of this, I think, is having 
Congress set some standards. Right now we are at the mercy of 
one executive order versus another executive order. And I don't 
care if you are in the transportation sector or the power plant 
sector, or whatever, there is no certainty in the marketplace. 
And that prohibits businesses more than anything else, in my 
experience as a businessperson, from making those leaps into 
various investment areas.
    So if we can get, you know, my opinion, Congress behind 
some regulatory framework that is market-based and encourages 
an all-of-the-above strategy to get to zero, that would 
actually maybe give everyone that certainty of going forward, 
and you guys can make the investments you need. MISO can do 
what it needs to do. I mean, it just, to me, makes a lot more 
sense. And so hopefully we will have opportunity to do some of 
that going forward.
    I yield back. Thank you very much.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    I am so excited by the conversation that was started by my 
friend Mr. Schrader, because--and I tell my constituents this 
all the time--we may disagree on how to get there, but most 
folks are coming here trying to solve problems. And I have to 
agree--I am a big believer that we need to have parity in our 
research dollars coming out of DOE and other places, because we 
are going to continue to use the carbon-based fuels, and we 
have got to figure out ways to do that. And doing research on 
all of this so that we can get to this number, not just by 
saying we are going to eliminate the carbon-based fuels--oil, 
natural gas, coal--but by figuring out how we can do it 
cleaner.
    Another colleague brought up carbon capture and 
sequestration. I will tell you, there is some great research 
going on out there. And just in my district, we have MOVA 
company that is now going to a prototype at Virginia Tech with 
panel bed filtration, which separates out through different 
filter processes individual pollutants. I am looking here at 
the screen, because there is a video--soon to come to a theater 
near you--that shows how they can take out with different 
filters NOx, SOx, flash, and carbon dioxide.
    And what they are planning on doing with it is, by having 
these separate panels, they can then take that product, because 
they are not getting it all filtered into one big box that then 
has to be separated. Each one of the filters would have a 
specific item that it filtered out, so you could then sell the 
CO<INF>2</INF>, you could sell the NOx, the SOx, and the flash, 
or do what you want to do. Arsenic is another one that they 
have mentioned in the past. That is a fantastic way to go, but 
we have got to have the research to do it.
    And it is a way that we can get to zero, perhaps by 2050, 
but not just by saying we are going to eliminate the use of our 
carbon-based fuels.
    We also have one that is having surprising effects that is 
already going into use. And they started off looking for ways 
that they could separate rare earth from the coal in central 
Appalachia. And so what they have done is they have got these 
different things--and DOE has funded a lot of this and 
continues to fund some research in that area--but what they are 
doing is, is that they are going to, by figuring out how to 
separate it, they have now licensed that technology some steel 
mills--I have to watch my accent, because it comes out ``still 
meals''--but steel mills in India. Because India has coal. They 
have dirty coal. They don't have much else to use in the way of 
fuels. And if we think they are going to eliminate the use of 
coal and bankrupt their industries--not going to happen.
    But this technology that we have developed here, they have 
figured out can be used--they don't have rare earth, but they 
can separate the dirty coal from the higher--utilization of the 
higher--the better carbon and lower the carbon footprint at 
steel mills in India.
    This is where research can have a dramatic impact on moving 
our country forward and helping the rest of the world. Because 
if we don't move it forward with affordable research and 
affordable technology, we can do everything we want to, it is 
not going to affect the climate or the atmosphere if we don't 
take care of making sure that it is affordable for the rest of 
the world to use as well. And if we can make a little profit 
along the way, that is even better.
    All right. Sorry about that diatribe, but I just got so 
excited listening to my colleague, and there are a lot of 
things we can do in a bipartisan fashion.
    All right. Another former colleague, Mr. Matheson, let me 
just say thank you, first off--I guess that was originally 
going to be first off, but I got all wound up--for supporting 
my New Source Review Permitting Improvement Act. This is an 
important issue, and if adopted, would help provide much-needed 
certainty from any--including your members.
    Now, if you could briefly tell us what the--what 
differentiates--and I know, but let's tell the public back 
home--electric cooperatives in rural, oftentimes low-income 
areas, from the investor-owned utilities.
    Mr. Matheson. Well, it is a different business model, first 
of all. We are owned by the consumers we serve. We are not 
owned by shareholders. And so we are also governed by our 
consumers. They elect the board of directors of each co-op. And 
so it is a different business structure. And we also have a 
different footprint in terms of the communities we serve. It is 
much lower revenue per mile.
    I made some of these statements in my opening comments, 
where it is--the utility average for revenue per mile or people 
per mile is four times as much for the other utilities than it 
is for us.
    So we have a sparsely populated group that we serve, and 
that was challenging back in the 1930s. That is why rural 
America--the for-profit utilities wouldn't go to rural America. 
Even with Federal subsidies they wouldn't. And that is why 
cooperatives formed back then. And those challenges continue 
today.
    And so that is really--those are some of the key 
distinctions, I would say, between the--and it doesn't mean we 
don't get along with our brethren across the electric sector, 
both the municipals and the investor-owned. We actually have an 
excellent working relationship. But those are some of the 
distinctions for electric cooperatives.
    Mr. Griffith. And you all don't have the ability to go out 
and research things like the MOVA technology or the separation 
of the coal. You just want what is affordable, and it is up to 
us in the Federal Government to come up with a way that we can 
have research parity that gets you a cheap product so that you 
can provide it to your customer. Isn't that correct?
    Mr. Matheson. I agree. But I will say, we have had success 
as a national association receiving grants from DOE. We do 
participate in those research projects.
    Mr. Griffith. Very good. Thank you so much.
    I yield back, Mr. Chairman.
    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Ms. Barragan for 5 minutes.
    Ms. Barragan. Thank you, Mr. Chairman.
    OK. Mr. Bear, do you think the Federal Energy Regulatory 
Commission, as it is currently constructed, is an ally or an 
obstacle to getting to 100 percent clean energy, and are there 
reforms you would suggest?
    Mr. Bear. I would say there are a lot of reforms that we 
would suggest. I touched on some of those in my testimony, 
where we need to rethink how we think about the electric 
energy, how we think about reliability, in terms of using just 
basic capacity as a homogenous commodity. We need to move away 
from that and start thinking about the attributes, that we need 
to operate a system with a lot of intermittent resources on it 
because it is very different.
    We need to look at availability metrics, as opposed to 
reserve margins and things like that, because it is every hour 
that matters now, not the peak hour or the peak day. So I think 
there are some pretty significant shifts that need to change on 
that front.
    The other key area, I would say, is pricing. Location 
marginal pricing is something that has been very good for 
rationalizing excess. But in terms of rewarding and 
incentivizing the attributes we need, I don't think it works. 
And so we need to move over to more value-based pricing.
    Ms. Barragan. Ms. Palmer, do you want to add anything?
    Ms. Palmer. Yes. I think that flexibility will be very 
important. I also think that the role of the demand side, in 
terms of customers, is going to become increasingly important.
    And so I think that the FERC is going to have to find ways 
to work with the States on this issue, because it is not really 
jurisdictional to them. But creating opportunities for 
resources on the customer side of the meter to play both in the 
ancillary services markets but also to face more--excuse me--
time differentiated prices that will help accommodate the 
variable renewables will be important.
    Ms. Barragan. And, Ms. Palmer, there has been a lot of talk 
about electric vehicles, especially on the other side, about 
maybe they are not as great as other options. You were starting 
to have an answer.
    Did you want to maybe have a little more time to explain 
why electric vehicles are worth investing in?
    Ms. Palmer. Oh, yes. Well, I think that there is sort of a 
simultaneous movement that is happening in the energy systems. 
And one is moving towards a largely decarbonized electricity 
sector, the goals that the committee has set forth in this 
discussion.
    And part of that--part of what is going to happen there is 
the introduction of more intermittent renewables.
    And--but also it is become increasingly important, as we 
have had substantial success in decarbonizing the electricity 
sector relative to past, is the transportation sector is 
becoming a larger share of carbon emissions.
    And so there may be various alternative ways to get to a 
decarbonized transportation system, but a lot of modeling 
suggests that electrification of transport and buildings under 
current cost conditions and expected cost improvements is going 
to be the way to do that. And so making it possible to 
electrify vehicles--(a) they are highly efficient, and (b) you 
are getting rid of not only carbon emissions but also other 
emissions associated with vehicle operations that are 
important.
    Ms. Barragan. Thank you. When I served on a city council, 
one of the popular policy options for power communities was to 
purchase clean energy solutions with something called CCAs, 
Community Choice Aggregation providers. This allows local 
governments to purchase cleaner electricity from alternative 
suppliers on behalf of residents and businesses. Currently only 
a handful of States, including California, allow for CCAs.
    Mr. Dennis, in your testimony you talked about the 
importance of reforming utility business models and consumer 
choice. Can you speak to the role that CCAs could have 
nationally in accelerating our country to 100 percent clean 
energy?
    Mr. Dennis. Certainly. I think opportunities for 
communities to increase their ability to choose clean energy 
can have an important role in taking advantage of, you know, 
the cost reductions I talked about, that clean energy is really 
now the most affordable resource on the grid.
    We see different kinds of models. I think, you know--not to 
steal Mr. Matheson's thunder, but certainly we see 
cooperatives, places like Holy Cross Energy in Colorado, that 
are really taking advantage of technology in that way, to work 
one on one with their consumers that are asking them for this 
and make these kinds of changes.
    So certainly CCAs is one option. I don't think it is the 
only option. But it certainly provides an interesting model 
that other States and even Congress can look at.
    Ms. Barragan. Right. And I know it has been mentioned 
before, the situation in California with the rolling blackouts 
and the fires. I would be remiss if I didn't mention that we--
you know, first of all, I think it is unacceptable that we are 
dealing with this by having these rolling blackouts. I talk to 
people every day who tell me about them having to move and the 
hardships it causes and obviously the risk and the concern. It 
is unacceptable.
    And I am hoping that, when we develop this plan of going 
100 percent by 2050, we are taking a look at the energy grid, 
how can we avoid this, and making sure we are holding those 
accountable who are not investing in proper maintenance and 
under investment.
    So with that I yield back. Thank you.
    Mr. Rush. The gentlelady yields back.
    The Chair now recognizes the gentlelady from Colorado, Ms. 
DeGette, for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman. Thanks so 
much for letting me waive onto the committee for this important 
hearing.
    And if I would have known my friend and our former 
colleague on this committee, Jim Matheson, were here, I would 
have come over a lot earlier.
    But I wanted to come over to talk about some legislation 
that I have been working on. As we all know, and I am sure you 
have been discussing this today, to avoid the worst effects of 
the climate crisis, we have to cut carbon emissions in half by 
2030 and then to net zero by 2050.
    And so, while I have been talking to Xcel Energy and lots 
of other people about this, we know we need to eliminate the 
carbon emissions, but we don't yet have the full technology to 
do that, to a zero percent. Wind and solar are critical, and we 
need to increase their use dramatically. But without 
breakthroughs in technology, those two sources alone will not 
get us to the zero percent.
    And so I think we all agree we need innovation and 
technology to provide the reliable electricity that we have 
come to expect.
    So here's what the legislation I expect to be introducing 
in the next few weeks will do. And I am hoping--I still hope we 
can do it on a bipartisan basis.
    But what it does--part of what it does is it encourages the 
development of the widest possible array of technologies to 
produce emission-free electricity. And it sets us on a course 
to having affordable, reliable, and 100 percent emission-free 
electricity by 2050.
    So I want to ask this panel some general questions that I 
have been thinking about in working on the bill.
    Mr. Dennis, I wanted to ask you, since spurring innovation 
is the goal of this hearing and also of my bill, I wanted to 
ask you about some of the advances that we have had in energy 
technology that have helped bring down the cost of solar and 
wind energy. Were those technological advances driven by the 
private markets alone, or did Federal policy play a role in 
driving the development of the technologies we have today?
    Mr. Dennis. Well, certainly a mixture. Federal policy 
certainly played a role in terms of we had long-term tax 
incentives for investments in these technologies. We had 
research and development. DOE had a lot--had and has a long-
time effort around wind and solar as well.
    Ms. DeGette. Right.
    Mr. Dennis. So it is a combination.
    Ms. DeGette. It is a combination. So you need both private 
and Federal policy. So what I want to ask, as we try to develop 
these technologies in the next few decades, is it fair to 
expect that new clean energy technologies will be invented in 
time to bring us this affordable, reliable net zero electricity 
by 2050 without a change in Federal policy? Or do we need a 
Federal change?
    Mr. Dennis. We need a Federal change. We need the Federal 
Government to set the direction. And as you mentioned as well, 
and as many others have mentioned, R&D is going to be 
important, too.
    Mr. DeGette. Thank you.
    Dr. Palmer, the legislation I have been working on would 
in, among other things, establish a clean energy standard that 
gradually increases until we are generating 100 percent of our 
electricity using zero emitting technologies.
    And so what it does is, it is designed to reward investment 
in clean energy technologies without adding to the size of the 
Government.
    And I would like to ask you, it is my understanding that a 
clean energy standard by its design would help keep electricity 
prices low compared with other carbon pricing mechanisms.
    Would you agree with that?
    Ms. Palmer. Yes, Congresswoman.
    So traditionally, approaches--approaches that apply a 
direct price on carbon are going to create a source of revenue, 
and that will pass through in the effect that it has on 
consumer prices of electricity, as long as that revenue is not 
used to offset the increase in electricity rates.
    So a clean energy standard, on the other hand, provides an 
incentive to produce electricity from clean sources by 
rewarding that and creating a demand for that attribute in a 
marketplace. And so that will have a lower impact on 
electricity prices.
    And, you know, with the carbon pricing approach, often it 
has been proposed that the money be dividend back to 
households. And that could mitigate or would, actually--
particularly for low-income groups--largely mitigate the impact 
on residential consumers. But a clean energy standard would 
make a more broad-based mitigation of that impact.
    Ms. DeGette. Thank you.
    Finally, what we are trying to do this with bill that I am 
doing is to drive innovation and accelerate the use of new 
technologies. Some people have--some of my colleagues have 
worked on similar measures, but they are not addressing 
deployment of the new technology.
    So I wanted to ask you, Mr. Izzo and Anderson, briefly, if 
we seek to foster clean energy innovation without giving power 
companies a reason to deploy technologies, do you think they 
will be adopted universally in time to bring the emissions to 
net zero by 2050?
    Why don't we start with you, Mr. Izzo.
    Mr. Izzo. Yes. I do not. I think a hallmark of utility 
service has been universal access. And that would be true in a 
renewable world as well.
    Ms. DeGette. Thank you.
    Mr. Anderson, briefly.
    Mr. Anderson. I agree with that statement. I would just say 
that, as technologies are emerging, that we are developing 
programs to train people to work on them, to maintain them. But 
I agree with the essential point that he just made.
    Ms. DeGette. Thank you.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Rush. The gentlelady yields back.
    And that concludes the witness questions.
    And I want to thank--the Chair stands corrected.
    The Chair now recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    Just spoke to my Michigan bankers, and they said let's keep 
the energy on and any way we can power to our rural areas, that 
is great. Thanks to the panel for being here.
    Let me cut to the chase here.
    Mr. Anderson, in your testimony, you mention the UWUA's 
Power for America Training Trust, P4A, and its partnership that 
we have, I appreciate the fact that--with Consumers Energy in 
my district in achieving the first Department of Labor-
certified apprenticeship program in renewable energy.
    I had a chance to talk with some of the students and the 
excitement they have with realizing that they are on the ground 
floor of a future that is going to be very special.
    You know, I personally support an all-of-the-above plan. I 
hope we do the research necessary to make sure that we keep all 
of that base energy there, but we have to expand and develop as 
well.
    So that program is great. I applaud you for that.
    The apprenticeship program is important. It supplies skills 
for the future as well as the present--wind, solar, better 
technologies, energy sectors as well as present sector.
    So let me ask you, as technology changes, it is essential 
that jobs evolve with then.
    Can you elaborate a bit more on the demand for skilled 
trade training to meet the needs of our ever-changing energy 
sector?
    Mr. Anderson. Yes, absolutely. Thank you very much for the 
question, Congressman, and for your appreciation of our program 
there. We train people to do everything from climb utility 
poles to work on gas appliances and now how to build and 
operate brand-new technologies.
    These are programs that we are developing and have 
developed literally from scratch. There have not been 
previously apprenticeship programs that broad over that many 
technologies, and we have had to invent it as we go along. And 
there will be more of that.
    We are already in the process of thinking about how we can 
develop apprenticeship programs so that people can operate and 
maintain zero-emission vehicle infrastructures as that gets 
built out. We are also looking to expand what we do in wind 
energy to not just be onshore wind farms, but also as offshore 
towers are built, we want to train people, apprentices, to go 
out and work on those towers as well.
    The technology will not shop changing. That is for sure. 
Ten, 15 years ago, there will be things coming online we 
haven't even imagined yet. And our goal at that time, I am 
sure, will be to develop new programs to train people to work 
on those things as well.
    So we are using that program and programs that we want to 
build like that to evolve our workforce, evolve our training 
programs, and adapt to the changing energy systems.
    Mr. Walberg. Of course, we have to be more resolved in 
encouraging students to think about those careers, whether it 
is climbing a pole or climbing one of those towers made in my 
district for the wind turbine, working on those tuning--how you 
tune those big blades and all of the rest. This is something 
that we have to excite our young people with.
    Mr. Anderson. Oh, absolutely.
    Actually, to the point about the blades, we are in the 
process of figuring out how we are going to build at least part 
of a wind tower right there on that facility. One of the main 
threshold questions you have to ask an apprentice is, can you 
climb that? It is very high, right?
    There are people who don't get over that threshold, right? 
But for many people, that is very exciting, right? It is a 
thing that they can hardly imagine doing previously.
    And yes, it is having that gets overlooked. People rush off 
to do, you know, college tracks or whatever, and that is 
appropriate for some people. But I am proud to say that many of 
the members who work in these industries make more money than I 
do. Those are very good jobs, and they are definitely a pathway 
to the middle class for sure.
    Mr. Walberg. And beyond.
    Thank you.
    Mr. Bear, and also Mr. Matheson as well and Mr. Izzo--I 
won't ask a question of whether you are related to Tom Izzo, 
the great hockey coach at Michigan State. I wish you were. We 
could talk about that.
    I think it is clear that our Nation's energy grid needs to 
be resilient, and there is a real concern that it won't be if 
we don't plan carefully.
    Can the three of you give me your perspective on how the 
transmission grid needs to change to support these significant 
changes in the power system?
    Mr. Bear, we will start with you first.
    Mr. Bear. Sure. Thank you. Appreciate the question.
    I think that, in looking at the grid, we are doing a lot of 
studies now to understand at different levels of renewable 
penetration what the implications are. And it comes from a 
couple different dimensions. You know, one, what do we need 
from a resource standpoint on the grid to make sure that we can 
maintain reliability, in terms of attributes, flexibility, for 
example, frequency balancing, stability balancing, those kinds 
of things.
    We are also trying to understand what we need to price 
those mechanisms so that they are rewarded appropriately. And 
we have sort of a pricing scheme that reflects the underlying 
system conditions at all times.
    And then, third, we have got to look at the transmission 
system itself, because I think the grid needs to be much 
different to balance much more--larger penetrations of 
renewables as we go forward.
    Mr. Walberg. OK. Mr. Matheson.
    Mr. Matheson. I think Mr. Bear hit the high points. I think 
one thing we should keep in mind when--to the extent there is a 
transition, we should also do no harm, you know.
    Our electric grid--while it is aging, we haven't invested 
enough--it is actually functioning remarkably well. We have 
99.99 percent reliability across this country. It is a 
substantial investment with a great history. So let's make sure 
as we look at transitioning, we don't mess up what has been a 
pretty reliable thing over a long period of time.
    Mr. Walberg. I am going to let Mr. Izzo respond to that as 
well.
    Mr. Rush. The final witness.
    Mr. Izzo. So I would echo those comments. The regional 
transmission organizations, whether it is MISO or PGM, do a 
fine job of modeling for 15-year periods in advance, the 
reliability of the grid. FERC does a good job of creating an 
efficient and effective regulatory system to encourage 
investment.
    I would just point out that it should not be the burden of 
the utility consumer or the transmission owners to create the 
infrastructure that are needed to connect the renewables to 
load centers. That really should be a generator lead. That 
should be the responsibility to fully reflect the cost of the 
supply option being selected in the location where it is being 
selected.
    Mr. Walberg. Thank you.
    And thank you, Mr. Chairman.
    Mr. Rush. That concludes the witness questioning.
    I would like to thank our witnesses for their participation 
in today's hearing. And I will remind Members that, pursuant to 
committee rules, they have 10 business days to submit 
additional questions for the record to be answered by the 
witnesses who have appeared. I ask each witness to respond 
promptly to any such questions that you may receive.
    The Chair now asks for unanimous consent to enter into the 
record the charts and the submissions by my colleague from West 
Virginia, Mr. McKinley, that were omitted because of technical 
difficulties.
    Without objections, so ordered.
    That concludes the subcommittee hearing, and at this time 
the subcommittee is adjourned.
    [Whereupon, at 1:20 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
